<html>
<title> - BOUNDARIES OF FORT DONELSON BATTLEFIELD; ESTABLISH THE CONGAREE SWAMP NATIONAL PARK; HARRY S. TRUMAN STATUE; AND BOUNDARIES OF HARPERS FERRY NATIONAL PARK</title>
<body><pre>[Senate Hearing 108-225]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-225
 
 BOUNDARIES OF FORT DONELSON BATTLEFIELD; ESTABLISH THE CONGAREE SWAMP 
NATIONAL PARK; HARRY S. TRUMAN STATUE; AND BOUNDARIES OF HARPERS FERRY 
                             NATIONAL PARK
=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   on
                                     

                           S. 524                                S. 1472
                            S. 1313                               S. 1576

                                     
                               __________

                            OCTOBER 2, 2003


                       Printed for the use of the
               Committee on Energy and Natural Resources







                      U.S. GOVERNMENT PRINTING OFFICE

90-951                       WASHINGTON : 2003
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, DC 20402-0001












               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                    CRAIG THOMAS, Wyoming, Chairman
                  DON NICKLES, Oklahoma, Vice Chairman

BEN NIGHTHORSE CAMPBELL, Colorado    DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER. Tennessee           BYRON L. DORGAN, North Dakota
CONRAD BURNS, Montana                BOB GRAHAM, Florida
GORDON SMITH, Oregon                 MARY L. LANDRIEU, Louisiana
JON KYL, Arizona                     EVAN BAYH, Indiana
                                     CHARLES E. SCHUMER, New York

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Thomas Lillie, Professional Staff Member
                David Brooks, Democratic Senior Counsel



















                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bunning, Hon. Jim, U.S. Senator from Kentucky....................     2
Byrd, Hon. Robert C., U.S. Senator from West Virginia............     1
Fruster, Hattie, President, Lower Richland NAACP, Hopkins, SC....    23
Frye, Dennis E., President, Civil War Adventures, Sharpsburg, MD.    18
Hampton-Faucette, Harriet, Columbia, SC..........................    21
Hollings, Hon. Ernest F., U.S. Senator from South Carolina.......     3
Masica, Sue, Associate Director, Park Planning, Facilities, and 
  Lands, National Park Service, Department of the Interior.......     6
Spencer, Debby, Vice President and Tourism Development 
  Specialist, West Kentucky Corporation, Bowling Green, KY.......    15
Talent, Hon. Jim, U.S. Senator from Missouri.....................     5
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    29

                              Appendix II

Additional material submitted for the record.....................    33


















 BOUNDARIES OF FORT DONELSON BATTLEFIELD; ESTABLISH THE CONGAREE SWAMP 
NATIONAL PARK; HARRY S. TRUMAN STATUE; AND BOUNDARIES OF HARPERS FERRY 
                             NATIONAL PARK

                              ----------                              


                       THURSDAY, OCTOBER 2, 2003

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.

    The subcommittee met, pursuant to notice, at 10 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. Good morning. We'll go ahead and get 
started. I want to welcome the witnesses today for the National 
Parks Subcommittee hearing.
    Our purpose is to hear testimony on four Senate bills: S. 
524, a bill to expand the boundaries of Fort Donelson National 
Battlefield, Kentucky; S. 1313, a bill to establish the 
Congaree Swamp National Park in the State of South Carolina; S. 
1472, a bill to authorize the Secretary of the Interior to 
provide for the construction of a statue of Harry S. Truman at 
Union Station in Kansas City, Missouri; and a bill to revise 
the boundaries of Harper's Ferry National Historical Park.
    So I want to thank all the witnesses for being here today, 
and we look forward to your comments on this.
    Senator Bunning.
    [A prepared statement from Senator Byrd follows:]
        Prepared Statement of Hon. Robert C. Byrd, U.S. Senator 
                           From West Virginia
    Mr. Chairman and Members of the Committee, I want to thank you for 
the opportunity to provide remarks in support of S. 1576, a bill to 
authorize the boundary expansion of the Harpers Ferry National 
Historical Park.
    I am a lifelong student of history. Regrettably, too few citizens 
today possess a full appreciation of history. If our nation is to have 
any hope of being prepared for the future, Americans need a deeper 
understanding of this nation's past. History is not only a commonly 
shared memory, a record of the past, but it is also an excellent 
teacher and a guidebook to the future. Our National Park System plays 
an invaluable role in preserving our history and enabling citizens to 
be exposed to the great moments of our nation's past. Regardless of 
size, location, or theme, our nation's parks serve as living 
classrooms. We must do all that we can to protect and maintain them for 
future generations.
    The Harpers Ferry National Historical Park has been the backdrop 
for many of the nation's remarkable historic events. Here, in one 
setting, several themes in America's story converge: exploration, 
industry and transportation, the question of slavery, the Civil War, 
the early Civil Rights movement, and the natural splendor of our 
nation.
    More specifically, Harpers Ferry contributed an important cache of 
supplies for the Lewis and Clark Expedition that helped sustain these 
brave explorers as they traveled to the Pacific Ocean and back. In 
1859, abolitionist leader John Brown and a small band of raiders held 
federal troops at bay in the federal arsenal. The property also 
includes the Baltimore & Ohio (B&O) train station, and it borders a 
part of the Chesapeake and Ohio (C&O) Canal. In September 1862, a total 
of 37,000 Union and Confederate troops wrestled for the control of 
Harpers Ferry. Around the turn of the last century, Harpers Ferry 
served as a meeting place for several important events that helped 
stoke the early Civil Rights movement.
    Harpers Ferry's rich history is matched only by its great natural 
beauty. The park is also home to a vast array of outdoor and 
recreational opportunities. Throughout the year, residents and visitors 
alike can be seen enjoying fishing, hiking, biking, horseback riding, 
rafting, canoeing, kayaking, and much more in this scenic park.
    Originally established in June 1944, Harpers Ferry National 
Historical Park has had three previous boundary expansions. 
Additionally, in 1988, the National Park Service (NPS) was directed by 
Congress to study lands adjacent to the Harpers Ferry National 
Historical Park to determine whether some lands just outside the Park 
boundary had historical significance and merited federal protection.
    However, starting when the first proposed housing developments 
threatened the historically significant School House Ridge Battlefield, 
the Harpers Ferry area experienced tension between development 
interests and preservation interests. Over time, outreach by the 
National Park Service has helped to educate community members about the 
historic and other values of properties that could be acquired, thus 
dramatically increasing local public support for the expansion. The 
National Park Service further carried out this task by undertaking a 
study and proposing a new park boundary and acreage ceiling increase 
based on a broad public outreach effort. This larger expansion proposal 
indicated that 94 percent of respondents now strongly support this 
effort.
    Today, Harpers Ferry National Historical Park consists of 2,505 
acres of land, the current ceiling of the park. The park cannot accept 
additional land parcels of historic value that are available without 
the Congress authorizing an expanded boundary. The National Park 
Service recommends expanding the acreage ceiling to 3,745 acres, which 
will allow the Park Service to acquire an additional 1,240 acres. This 
new ceiling would be sufficient to allow the Park Service to acquire 
the adjacent, historically sensitive lands and incorporate them into 
the park and would provide a 100-acre buffer to the acreage ceiling if 
additional lands become available.
    Together, the area's historical, recreational, and ecological 
significance warrant the expansion of the boundaries of the Harpers 
Ferry National Historic Park, and now is the right time to do it. In 
addition to strong support of local citizens, the boundary expansion 
has the support of a number of groups, including the Friends of Harpers 
Ferry, the Harpers Ferry Conservancy, and the Civil War Preservation 
Trust.
    The Roman orator and statesman Cicero observed that, ``History is 
the witness that testifies to the passing of time; it illumines 
reality, vitalizes memory, provides guidance in daily life and brings 
us tidings of antiquity.'' Cicero's words from two millennia ago hold 
true today. Again, I thank the Chairman and the Committee for 
consideration of this legislation. The passage of S. 1576 is critically 
important in order to ensure the permanent protection of sensitive 
properties currently outside the park boundary.

          STATEMENT OF HON. JIM BUNNING, U.S. SENATOR 
                         FROM KENTUCKY

    Senator Bunning. Thank you, Mr. Chairman.
    I'm privileged to speak before the committee on an issue of 
great important to Kentucky and the United States. I introduced 
a bill, S. 524, in March, called the Fort Donelson National 
Battlefield Expansion Act of 2003. This bill is designed to 
expand the boundaries of Fort Donelson to authorize the 
acquisition of lands associated with the campaign of the Civil 
War that resulted in the capture of the fort in 1862. 
Significantly, this bill will preserve Fort Heiman, an integral 
part of the Fort Henry/Fort Donelson campaign of the Civil War, 
for future generations to enjoy. Fort Heiman, along with its 
sisters forts, Fort Henry and Fort Donelson, played an integral 
role in the conclusion of the Civil War.
    Situated on the Tennessee and Cumberland rivers, Fort 
Heiman controlled the flow of materials and supplies from the 
South. When General Ulysses S. Grant and the Union forces 
captured and occupied the fort in February 1862, the two major 
transportation routes for the Confederacy, the Tennessee and 
the Cumberland rivers, became Union highways for the movement 
of supplies and troops into the South. Yet despite this 
considerable role, Fort Heiman is rarely noted or remembered 
for its historic significance in the Civil War.
    Additionally, parts of Fort Heiman are in danger of being 
lost to real estate development, road constructions, and 
environmental damage. Without the protections of this bill, the 
United States will lose an integral part of its history and its 
culture. Aside from the economic and tourism boom, the 
preservation of Fort Heiman will bring to Kentucky, I believe 
that the preservation of Fort Heiman as a historic and cultural 
artifact is essential to the preservation of our heritage and 
our sense of pride in our community. It is my hope this bill 
will encourage just that.
    Thank you, Mr. Chairman.
    Senator Thomas. Thank you, Senator.
    Senator Hollings, I'm sorry, I didn't realize that the 
Senator had a statement.
    Senator Hollings. That's all right.
    Senator Thomas. Go ahead, please, sir. Glad to have you 
here.

             STATEMENT OF HON. ERNEST F. HOLLINGS, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Hollings. Thank you very, very much, Mr. Chairman 
and Senator Bunning.
    In the interest of time, let me file, if the committee 
please, my statement in its entirety, along with a series of 
letters that support our Congaree National Park, from the 
Audubon Society, the Sierra Club, the National Parks 
Conservation Association, and various other groups.
    Senator Thomas. It will be in the record.
    Senator Hollings. Mr. Chairman, you have, of course, the 
wonderful Grand Tetons. We have not moved on the east coast to 
really preserve the trees, fauna, and the wonderful growth that 
we have. Yes, we've done it with respect to Yosemite, with 
respect to Yellowstone, the Tetons. But some 225 years ago, 
when we started this country, we had over 24 million acres of 
such eastern flood-plain hardwood forests.
    Now, when I came to the Senate, some 37 years ago, they 
were taking this particular stand, which is of 22,000 acres 
now, that we've made a monument, they were burning it off and 
cutting it and destroying it at the rate of about 500 acres a 
year. And Mr. Harry Hampton, of Columbia, South Carolina, a 
famous conservationist to us in the State, came to me, and 
we've worked over the past 37 years. We, back in the early 
'70s, got it created as a national monument, but the thrust now 
is to make it a national park. And Mr. Hampton's daughter, Ms. 
Harriet Faucette, that'll be here and will be testifying more 
in length about the wonderful nature of the park itself--we've 
got over 700 different types of plants, 170 species of 
different birds there, and everything else.
    But I think to really make the bottom line, we've got parks 
in the Piedmont. We've got, down in the low country where I 
live, Fort Sumter, Fort Moultrie, different other parks, but--I 
mean, monuments--but we never have had, as an original-13 
State, never have had a park. And the entire State now has 
gotten together on this, because it's really deserving of the 
characterization by the Congress of making this monument a 
park.
    I'll be glad to try to respond to any questions that you 
have.
    [The prepared statement of Senator Hollings follows:]
      Prepared Statement of Hon. Ernest F. Hollings, U.S. Senator 
                          From South Carolina
    Mr. Chairman, earlier this year I introduced legislation that is 
particularly important to me, in that it culminates nearly 30 years of 
efforts to preserve the wilderness of South Carolina for future 
generations of Americans. This legislation proposes to raise the 
designation of the Congaree Swamp National Monument to the Congaree 
National Park, and to increase its size by 20 percent.
    I know the question that must be answered is whether Congaree is 
significant enough to be put in a league with Yellowstone, Yosemite, 
and the others that make up our 57 national parks? In this Senator's 
mind, absolutely, it is.
    Right now, the Congaree is our most underutilized national 
treasure. Many people outside my state have never heard of it, and when 
they do they think it is a nasty swamp with a bunch of standing water.
    So Americans are missing out on a majestic hardwood forest that has 
more types of trees, plants, animals, and birds than a person will see 
in a lifetime. The best thing we could do is to let more people enjoy 
this treasure by designating it a National Park.
    The Congaree is home to some of the tallest and rarest trees in the 
Eastern United States--some are 400 years old. When the country started 
225 years ago, there were 24 million acres of eastern, flood plain, 
hardwood forests like those in the Congaree. Now this is the last large 
remnant. This is it. It's all we have left. It is as important to our 
history, as the redwood forests are on the west coast.
    The Congaree also is home to 700 different types of plants and 170 
species of birds. All eight species of woodpeckers can be found here, 
including the endangered red-cockaded variety. This diversity makes it 
a location important to scientists, who can't find this in cities or 
farms.
    Even though the Congaree is the best kept secret in America, inside 
South Carolina it is known and loved. The attendance has ballooned to 
120,000 visitors every year, including some 12,000 students, who use 
the forest as their classroom to nature. It has awakened an interest in 
the environment for these children. They cruise the Congaree, learning 
how to identify trees, birds, animals, and everything like that. All 
kinds of groups take hikes, nature walks and canoe trips.
    Yet, had Congress not acted back in 1976, none of this may be 
around today. I still remember when my friend, Harry Hampton, enlisted 
my help to protect the big trees that were being destroyed 500 acres a 
year.
    In 1976, Congress set aside 15,000 acres to establish the Congaree 
Swamp National Monument. In the late '80s, we expanded it by another 
7,000 acres. More recently, we've invested in a visitor center and this 
investment has far exceeded this Senator's and Harry Hampton's 
expectations. Harry Hampton's daughter, Harriet Hamptom Fossett, is 
here today to testify on this.
    Now, we must continue the progress, and re-designate the Monument 
into a full fledged National Park. National parks are regarded as 
nationally significant if they are an outstanding example of a 
resource--the Congaree is; if they are illustrative of our country's 
heritage--the Congaree is; and if they provide extraordinary 
opportunities for recreation and scientific study--and the Congaree 
does.
    This would be the first National Park in South Carolina. My little 
state's number one industry is tourism, and this would help our 
economy, as it provides a growing attraction for local, state, 
national, and international visitors to see America's finest forest on 
the east coast.
    My proposal has received support from a number of organizations--
the business and environmental community alike. This includes letters 
from the Greater Columbia Chamber of Commerce, Richland County Council, 
Columbia Mayor Bob Coble, Friends of the Congaree Swamp, and South 
Carolina Coastal Conservation League. I ask that their statements be 
put in the Record.
    I hope to work on a bi-partisan basis to gather your support and 
pass the legislation this session.

    Senator Thomas. Thank you, Senator.
    Questions?
    [No response.]
    Senator Thomas. Appreciate your being here, sir. And we'll 
have other----
    Senator Hollings. Yes, thank you very much, Mr. Chairman.
    Senator Thomas. Thank you.
    Senator Talent.

          STATEMENT OF HON. JIM TALENT, U.S. SENATOR 
                         FROM MISSOURI

    Senator Talent. Thank you, Mr. Chairman.
    I, too, want to thank you for holding this hearing to 
discuss, among other bills, one that I introduced earlier this 
year, which would authorize the construction of a statue of 
former President Truman at Union Station, in Kansas City, 
Missouri.
    Mr. Chairman, Union State is one of Kansas City's truly 
historical landmarks. It was built in 1914. It features a 95-
foot ceiling in the grand hall, three 3,500-pound chandeliers, 
and a six-foot-wide clock hanging in the station's central 
arch. It encompasses 850,000 square feet, and it was 
beautifully restored in 1999. It's now a very popular 
destination, both for folks who live in Kansas City, as well as 
tourists. It's a complex. It's filled with restaurants, shops, 
theaters. It has traveling exhibits, special events. They host 
parties and receptions. There's a science center there that's 
very popular.
    In the original 1914 plans for Union Station--so this goes 
back to 1914--the central bay of the facade was left with an 
empty 20-foot-high limestone pedestal. Suggestions for the 
statue have included that of one of the city fathers or 
something that would denote the city spirit. The architect left 
it that way for city officials to install a statue, and despite 
a number of suggestions through the years, the pedestal has 
remained unoccupied for nearly a century.
    Now the city's leaders have decided that they want to erect 
a statue to Harry Truman. A statue to President Truman would, 
of course, represent a great historical connection with greater 
Kansas City, because he came from that county. It would pay 
tribute to Missouri's only President of the United States and 
Commander in Chief. It would have a connection to Liberty 
Memorial, which is the United States' only World War I 
memorial. And, of course, President Truman served in World War 
I.
    Mr. Chairman, it's appropriate that Kansas City's native 
son, President Truman, would be a natural choice to honor on 
this pedestal that's been vacant for so many years. He actively 
participated in combat in World War I. He later played a role 
in the dedication of the Liberty Memorial that this statue 
would be facing.
    Additionally, and we were surprised to find this out, there 
are only a few statues of President Truman in the world. 
There's one in Athens, Greece, where the Truman Doctrine was 
signed. There's another small one in Missouri, but there are 
none in Kansas City, and none of this size.
    Because Union Station is still a working train station, a 
statue of President Truman is historically significant, because 
he traveled the country via rail during his famous 
``Whistlestop'' campaign in 1948. He used Kansas City's Union 
Station on numerous occasions when traveling home to 
Independence. In fact, he was the last U.S. President to use 
the train as his principal means of travel on the campaign 
trail. When he returned home to Kansas City from Washington as 
Mr. Citizen 50 years ago, a big welcoming crowd was there for 
him.
    The statue would mean a great deal to the citizens of 
Kansas City. They believe in it. They've raised $275,000 to 
finance it. We had authorized only $50,000 as our contribution.
    I appreciate your hearing me on it, and the subcommittee's 
consideration. I think it would be very appropriate. The 
connection to Kansas City is very strong, and, to Missouri, is 
very strong; and, of course, President Truman played a key 
role, a pivotal role, in the development of our post-Cold War 
foreign policy.
    So I'd urge the subcommittee to consider the bill 
favorably, and I'll be happy to answer any questions.
    Senator Thomas. Thank you very much. Appreciate it, 
Senator. Appreciate it.
    Senator Talent. Okay.
    Senator Thomas. Okay, let's move on to our first panel, 
then.
    Ms. Sue Masica, Associate Director of Park Planning, 
Facilities, and Lands, National Park Service, thank you for 
being here.

  STATEMENT OF SUE MASICA, ASSOCIATE DIRECTOR, PARK PLANNING, 
FACILITIES, AND LANDS, NATIONAL PARK SERVICE, DEPARTMENT OF THE 
                            INTERIOR

    Ms. Masica. Thank you very much.
    Senator Thomas. Appreciate it very much.
    Before you begin your statement, I believe you have a list 
of technical corrections the committee has prepared. Are these 
consistent with the technical corrections provided by the 
committee in the 107th Congress?
    Ms. Masica. Yes, Mr. Chairman.
    Senator Thomas. Thank you. Then we'll enter them in the 
record for this hearing.
    Thank you.
    Ms. Masica. Mr. Chairman, thank you for the opportunity to 
be here this morning.
    We've submitted our written testimony, and ask that it be 
included in the record, and I'll just summarize the four bills 
and our position on them, if that's okay with you.
    Senator Thomas. It will be included.
    Ms. Masica. The first bill, S. 524, expands the boundaries 
of Fort Donelson National Battlefield, and authorizes the 
acquisition and interpretation of lands associated with the 
campaign that resulted in the capture of the fort in 1862. The 
bill would add approximately 1,400 acres to the park, and also 
provide for a memorandum of understanding between the Park 
Service regarding Fort Henry with the Park Service to assist 
with visitor services, resource protection and interpretation. 
There are estimated costs of only about $150,000 for land 
acquisition because of the donations that would be associated 
with this park. I estimate its startup operational costs of 
about a million dollars in the first year, and then about 
850,000 annually after that. And the Department does support S. 
524.
    On S. 1313, the Congaree Swamp bill would change the 
designation from Congaree Swamp National Monument to Congaree 
National Park, and also expand the boundary of the park with an 
estimated 4,600 acres identified for acquisition, with three 
primary tracts at this time. The estimated cost for those 
acquisitions are in the $9- to $10-million range, and, as a 
result, the Department recommends that action be deferred on S. 
1313 for two primary reasons. One, we believe that the bill is 
premature, because the Park Service has not had an opportunity 
to study whether the lands identified in the bill are suitable 
and feasible for addition to the park. Such a determination, 
along with the consideration of re-designation from a national 
monument to a park is typically done through the GNP process 
for an existing unit of the park system. Secondly, deferral 
would allow the Park Service to continue to focus our resources 
on caring for existing areas within the system as we address 
the deferred maintenance backlog.
    On S. 1472, the bill to authorize for a grant by the 
Secretary of the Interior for construction of a statue to Harry 
S. Truman at Union State, in Kansas City, the Department 
opposes enactment due to the financial implication of the bill 
on national parks and park programs. We believe the use of 
limited Park Service appropriations to fund the design and 
construction of non-NPS projects of this type is inappropriate. 
Just last year, in fiscal 2003, nearly $25 million in grants 
were directed to be passed through the Park Service budget for 
construction of non-park-system projects, and that's why we 
have this concern. Admittedly, the cost of the bill is only 
$50,000 for the Federal share of the statue's estimated 
$325,000 cost.
    S. 1576 provides for additional lands to be included in the 
boundary of Harper's Ferry National Historical Park, and it 
would authorize an estimated 1,200 acres to be added to the 
park. Most of that is the transfer of lands presently in 
Federal ownership from two other jurisdictions to the Park 
Service--to the park, and then also a donation from the Civil 
War Preservation Trust. And the bill authorizes acquisition 
from some private property owners. The estimated cost of the 
willing-seller acquisitions is about $3.7 million. The 
Department's position is that we would support the bill, but 
only if amended to include only the transfer of the Federal 
parcels and the donation from the Civil War Preservation Trust 
that's also a part of the bill. We recognize the importance of 
the remaining lands to be acquired, but recommend deferring 
action on those to allow us to continue to address the 
maintenance backlog and to devote our resources to other 
things. And if those amendments were adopted, that would also 
reduce the costs of the capital improvements that are 
anticipated in the bill that would be done on the property to 
be acquired.
    Mr. Chairman, that summarizes our position on those four 
bills. I'll be happy to answer any questions.
    [The prepared statements of Ms. Masica on S. 524, S. 1313, 
S. 1472, and S. 1576 follow:]
 Prepared Statement of Sue Masica, Associate Director, Park Planning, 
    Facilities, and Lands, National Park Service, Department of the 
                          Interior, on S. 524
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 524, a bill to expand the 
boundaries of the Fort Donelson National Battlefield and to authorize 
the acquisition and interpretation of lands associated with the 
campaign that resulted in the capture of the fort in 1862.
    The Department of the Interior supports S. 524. Although the 
Administration's priority is to focus our resources on caring for 
existing areas within the National Park System, there are cases where 
an acquisition or expansion is needed to realize an existing park 
unit's mission and can be accomplished with reduced costs. This is such 
a case. This legislation would enable the National Park Service (NPS) 
to protect and interpret historical resources that are critical to the 
Civil War story concerning the surrender of Fort Donelson to Union 
forces.
    Fort Donelson National Battlefield (Battlefield), currently 
consisting of 558 acres, is located in Stewart County, Tennessee. The 
battlefield includes the fort, the Dover Hotel (Surrender House), and 
Fort Donelson National Cemetery. S. 524 would allow the Secretary of 
the Interior (Secretary) to expand the boundaries of the battlefield 
and acquire additional lands as long as the total acreage included in 
the battlefield does not exceed 2,000 acres. New lands may be acquired 
by purchase from willing sellers or by donation or exchange. Lands that 
would be added would include a detached unit of the battlefield at Fort 
Heiman, in Calloway County, Kentucky and various historical resources 
in and around Dover, Tennessee. In addition, S. 524 would require the 
Secretary and the U.S. Forest Service to enter into a memorandum of 
understanding for the protection and interpretation of remaining 
vestiges of Fort Henry and other Civil War resources in the Land 
Between the Lakes National Recreation Area.
    There will be no anticipated NPS land acquisition costs for the 
acquisition of Fort Heiman. West Kentucky Corporation and the 
Commonwealth of Kentucky have entered into a partnership to secure more 
than $1,000,000 for land appraisals and purchase of approximately 300 
acres at the Fort Heiman site. On September 23, 2003, Calloway County, 
Kentucky acquired approximately 200 acres of the site and intends to 
hold it in trust. The remaining 100 acres will also be purchased by 
this partnership. The intent is for the Fort Heiman site to then be 
donated to the NPS for inclusion into the battlefield once the boundary 
is adjusted through this legislation.
    The U.S. Forest Service administers the lands on which the outer 
earthwork fortifications of Fort Henry remain--the fort itself is under 
Kentucky Lake. Thus, since the land is in current federal ownership, 
and would continue to be managed by the U.S. Forest Service, land 
acquisition funds would not be required. However, visitor services, 
resource protection, and interpretation could be enhanced, and 
undetermined costs might result, based upon the memorandum of 
understanding between the Secretary and the U.S. Forest Service 
regarding the protection and interpretation of this land.
    First year personnel costs associated with this proposal are 
estimated to be $676,000, which would primarily be used to provide 
staffing for the detached unit that will be created at Fort Heiman. 
Additionally, a one-time development expenditure of about $325,000 is 
anticipated to cover maintenance equipment, vehicles, and miscellaneous 
start up supplies. Operational costs for future years are estimated to 
be approximately $850,000-$900,000 annually. Since that is roughly 
equal to the battlefield's current funding, the expansion would require 
doubling the annual appropriation for this unit.
    Murray State University in Kentucky has approached the park with 
the offer of office space, telephones, computers, and other office 
equipment if it is needed.
    In addition to the lands at Fort Heiman that will be purchased by 
the West Kentucky Corporation and the Commonwealth of Kentucky, the 
Civil War Preservation Trust (Trust) has purchased about 100 acres near 
or contiguous to Fort Donelson National Battlefield and holds an option 
for the purchase of an additional 105 acres. These two parcels contain 
the portion of the battlefield where 70% of the Union casualties took 
place. These properties would be included within the expanded boundary 
and we look forward to the possibility of working with the Trust to 
preserve and interpret these important lands. The Trust and the State 
of Tennessee are working on a cooperative venture to purchase another 
critical site consisting of approximately 7 acres near the current 
visitor center. There are an additional four sites of historical 
relevance and integrity near Fort Donelson that could be purchased from 
willing sellers, should they become available. Together, these parcels 
consist of approximately 20-23 acres and are estimated to cost less 
than $150,000.
    The capture of the forts (Heiman, Henry and Donelson) that guarded 
the Tennessee and Cumberland Rivers constituted the first major Union 
victory in the Civil War. The outcome earned Brigadier General Ulysses 
S. Grant his promotion to Major General, the nickname ``Unconditional 
Surrender Grant'', and prominence that led to the Presidency of the 
United States.
    The Confederate capitulation forced the evacuation of Nashville, 
Tennessee, virtually all of middle Tennessee, and much of western 
Tennessee. With the capture of the three forts the Tennessee and 
Cumberland Rivers became Union highways for the movement of men and 
material into the Deep South. The battles at Fort Henry and Fort Heiman 
were the first time in the Civil War where ironclad gunboats were used 
and the surrender of the forts ensured that Kentucky would remain in 
the Union.
    The American Battlefield Protection Program has classified the Fort 
Donelson National Battlefield area as a collection of Priority I sites 
implying a critical need for coordinated nationwide preservation 
action. Fort Henry and Fort Donelson are also designated as two of the 
principle battles of the Civil War and Fort Heiman, listed on the 
National Register of Historic Places, derives part of its significance 
from its direct association with them.
    The NPS is currently conducting a boundary study of Fort Donelson. 
Public response has been overwhelming in support of preserving the 
three forts under an umbrella of federal protection. The draft study is 
currently under agency review and is expected to be finalized by the 
end of calendar year 2003.
    We suggest some technical amendments to S. 524 that provide the map 
references that are missing from the bill and will provide overall 
clarification to the bill language. Our suggested amendments are 
attached to this testimony.
                          Proposed Amendments
    s. 524, fort donelson national battlefield expansion act of 2003
    Page 2, line 11, strike ``The Fort Donelson National Battlefield 
shall consist of the site of'' and insert ``The boundary of the Fort 
Donelson National Battlefield is revised to include the site of''.
    Page 2, line 18, strike ``map entitled `_____' numbered _____, and 
dated _____.'' and insert ``map entitled Fort Donelson National 
Battlefield Boundary Adjustment, numbered 328/80024, and dated 
September 2003.''
    Page 5, line 5, strike ``2 through 7'' and insert ``2 through 4, 6 
through 8, and 10''.
    Page 5, line 14, strike subparagraph A and insert, ``(A) in section 
5 (16 U.S.C. 428d), by striking `Provided' and the last sentence.''
    Page 6, line 19, strike paragraph 3 and insert, ``(3) 1960 Law. 
Public Law 86-738 is amended

          (A) in section 1 (16 U.S.C. 428k) by striking `Fort Donelson 
        National Military Park' and inserting `Fort Donelson National 
        Battlefield' and by striking ``, but the total area 
        commemorating the battle of Fort Donelson shall not exceed 600 
        acres''; and
          (B) by striking section 3 (16 U.S.C. 428m).''
                                s. 1313
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you to present the views of the Department 
of the Interior on S. 1313, a bill to establish the Congaree Swamp 
National Park in the State of South Carolina, and for other purposes.
    The Department of the Interior recommends that the subcommittee 
defer action on S. 1313 at this time. First, we believe that S. 1313 is 
premature since the National Park Service (NPS) has not had an 
opportunity to study whether lands identified in the bill are suitable 
and feasible for addition to Congaree Swamp National Monument 
(Congaree). Such a study, as well as an evaluation on the 
appropriateness of redesignating a site as a National Park is typically 
done for an existing park unit through a new General Management Plan 
(GMP) or an amendment to an existing GMP. Congaree has submitted a 
request for funding for a new GMP in fiscal year 2005. The new GMP 
would take three to four years to complete. Second, a deferral of S. 
1313 would allow us to focus our resources on caring for existing areas 
within the National Park System. The estimated cost associated with 
acquiring the lands proposed for the boundary expansion under this bill 
are high and would detract from our efforts to support the President's 
Initiative to eliminate the deferred maintenance backlog in our 
national parks.
    S. 1313 would authorize the establishment of Congaree National Park 
(Park) consisting of the lands currently included within the monument 
plus an additional 4,600 acres. Acquisition of new lands would be from 
willing sellers and the new park would have an acreage ceiling of 
30,000 acres. The existing Congaree Swamp National Monument Wilderness 
would be redesignated as the Congaree National Park Wilderness and the 
Secretary of the Interior (Secretary) would be directed to complete a 
GMP for the new park within three years including within the GMP any 
recommendations for expansion of the wilderness area. The Secretary 
would allow sport fishing to continue on land and water within the new 
park boundary, in accordance with federal and State laws.
    Congaree Swamp National Monument covers 22,200 acres of the 
Congaree River floodplain and is located 15 miles southeast and 
downstream from Columbia, South Carolina. The monument protects the 
largest remaining stand of southern, old growth bottomland hardwood 
forest in North America.
    S. 1313 would expand the park's boundary by 4,576 acres. These 
lands are privately owned timberland contiguous to, and downstream 
from, the current monument boundary. There are three tracts: the 1,886 
acre Kingville tract, the 2,420 acre Bates Fork tract and a 270 acre 
tract recently acquired by a private individual for private 
recreational purposes.
    The Kingville tract (1,886 acres) and Bates Fork tract (2,420 
acres) are currently for sale either for the timber they contain or as 
small hunting preserves. The owners of these tracts have expressed a 
willingness and desire to work with NPS on the preservation of these 
lands. Although formal appraisals have not been completed, it is 
estimated that the cost of acquiring these two tracts would be between 
$9 and $10 million. If these lands are acquired, it is anticipated that 
they would be maintained in an undeveloped condition and therefore have 
minimal operational costs. The owner of the third tract (270 acres) is 
willing to have his land included within the park boundary, but is not 
interested in selling at this time. The anticipated uses of this tract 
would be compatible with park objectives.
    The GMP that would be considered for funding in 2005 and that we 
would like to complete prior to consideration of this bill would 
examine the suitability and feasibility of including these tracts 
within the boundary of the monument. Studies of the area have been 
completed by third parties and by the U.S. Fish and Wildlife Service in 
the early 1970's as a potential location of a new National Wildlife 
Refuge. While these studies all concluded that the lands proposed for 
addition should be preserved, none of them examined these lands against 
NPS criteria.
    The Department has increasingly sought to engage in partnerships to 
increase protection of natural and cultural resources. The 2005 GMP 
could examine how expanding the boundary might support and complement a 
large-scale protection effort undertaken by the State of South Carolina 
called the Fork Swamp Large Area Project, located at the confluence of 
the Congaree and Wateree Rivers and covering approximately 67,915 
acres. Current NPS lands are close to, and could become a component of, 
this project.
    NPS management policies and practice indicate that a unit 
designated as a national park be of sufficient size with unique natural 
qualities and superlative scenery, as well as recreational 
opportunities. The NPS cannot support a change in designation merely 
for the sake of greater status within the system. To qualify for 
national park status, a wide range of resources must be present, all of 
which have been determined to be nationally significant.
    The monument is designated as a National Natural Landmark and 
International Biosphere Reserve and was recently designated a Globally 
Important Bird Area, noteworthy in particular as a sanctuary for over-
wintering birds. A nomination has been prepared to designate Congaree 
Swamp as a Wetland of International Importance under the Ramsar 
Convention. The monument also contains 10 structures listed on the 
National Register of Historic Places.
    The lands S. 1313 proposes to add would increase the monument's 
size, but could also add to its diversity of resources. We understand 
the land includes more of the green ash mixed bottomland hardwood 
community that is uncommon within the monument as well as Sampson 
Island, likely to have been used by American Indians as a temporary 
settlement or hunting camp. Only two other such ``islands'' are known 
to exist in the Congaree River floodplain, and none of these are 
located within the present monument boundary. Also included are the 
remnants of the south approach road to McCord's Ferry, site of troop 
movements in the Revolutionary War and also a diversionary skirmish 
during Sherman's march on Columbia.
    Finally, the 2005 GMP would provide a recommendation if a 
redesignation for the monument to national park status is warranted.
    In the future if this bill moves forward there are a few technical 
amendments that we would like to suggest and that we would be happy to 
share with subcommittee staff.
                                s. 1472
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 1472, a bill to authorize the 
Secretary of the Interior to provide a grant for the construction of a 
statue of Harry S. Truman at Union Station in Kansas City, Missouri.
    The Department opposes the enactment of S. 1472 at this time due to 
the financial implication of this bill on national parks and park 
programs. The Department is committed to supporting the President's 
Initiative to eliminate the deferred maintenance backlog in our 
national parks. We believe funds are more appropriately directed at 
this time to reducing the long list of necessary but deferred 
construction projects that have been identified in our national parks.
    Our opposition does not detract from the significance and 
importance of constructing a statue in honor of our nation's thirty-
third president in his home state of Missouri. However, we believe the 
use of limited National Park Service appropriations to fund the design 
and construction of non-National Park Service projects of this type is 
inappropriate. In FY 2003 alone, various pieces of legislation were 
passed and signed into law that authorized over $24.9 million in grants 
to be passed through the National Park Service budget for construction 
of non-Park System projects.
    S. 1472 authorizes the Secretary of the Interior to award a grant 
to pay for the Federal share of the cost of constructing a statue of 
Harry S. Truman to be placed at Union Station in Kansas City, Missouri. 
The bill states that the Federal share of the costs shall not exceed 
$50,000 and that the eligible entity shall submit a proposal for the 
use of the grant funds. It also states that the Federal government will 
not be responsible for the maintenance of the statue after it is 
constructed and erected.
    Union Station, built in 1914, is a Kansas City historical landmark. 
The complex is filled with restaurants, shops, theaters, traveling 
exhibits, special events, and a science center. The statue would be 
placed on the 20-foot high limestone pedestal under the center arch on 
the south facade of Union Station, facing the Liberty Memorial. 
President Truman passed through Union Station on numerous occasions and 
was the last president to use the train as his principle means of 
travel on the campaign trail. While we recognize this is an appropriate 
place in which to erect a statute of President Truman, we believe that 
National Park Service funds should not be authorized for this purpose.
                                s. 1576
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 1576, a bill to provide for 
additional lands to be included within the boundary of Harpers Ferry 
National Historical Park in the state of West Virginia.
    The Department supports enactment of this legislation if amended in 
accordance with this statement. S. 1576 would authorize the Secretary 
of the Interior to expand the boundary of Harpers Ferry National 
Historical Park to include lands that are critical to preserving 
resources that tell the stories there. The Department recommends that 
the legislation be amended to include in the boundary only the transfer 
of lands from the U.S. Fish and Wildlife Service and the Appalachian 
National Scenic Trail to Harpers Ferry National Historical Park, and 
the donation of 177 acres of private lands from the Civil War 
Preservation Trust. The Department recognizes the importance of 
including in the boundary the remaining private lands, but we recommend 
that the committee defer action on authorizing the acquisition of these 
lands during the remainder of the 108th Congress. To meet the 
President's Initiative to eliminate the deferred maintenance backlog, 
we need to continue to focus our resources on caring for existing areas 
in the National Park System.
    Located at the confluence of the Potomac and Shenandoah Rivers, 
Harpers Ferry has a history that has few parallels in the American 
drama. The park commemorates a diverse number of people and events, 
decisions, and actions that influenced the course of our nation's 
history over 230 years. In 1944, Congress established Harpers Ferry as 
``a public national memorial commemorating the historical events that 
occurred at or near Harpers Ferry.''
    This bill would add nine parcels of land to the boundary of the 
park to provide permanent protection of resources that are integral in 
commemorating historical events that occurred at Harpers Ferry. These 
include properties on School House Ridge, which was the position of 
Confederate General Stonewall Jackson during the strategic battle for 
Harpers Ferry in 1862; the Werner tract, which protects the southern 
viewshed of the park; a portion of the Appalachian National Scenic 
Trail that contains Civil War campgrounds; several small properties 
that protect park viewsheds between Bolivar Heights and the Murphy 
Farm; and Potoma Wayside that protects part of the view Thomas 
Jefferson described in his Journals on the State of Virginia as 
``stupendous'' and ``worth a trip across the Atlantic.'' The wayside is 
also used as the take-out for whitewater rafting companies and paddlers 
using the Shenandoah and Potomac rivers near Harpers Ferry.
    In 2001, at the direction of Congress, the National Park Service 
undertook extensive outreach efforts and public meetings in and around 
Harpers Ferry, West Virginia, to explain the options for expanding the 
boundary of Harpers Ferry National Historical Park. These options were 
drawn from 12 years of public debate centered on the expansion of the 
park and were incorporated into documents that were widely disseminated 
to the public.
    During the 2001 public outreach efforts, Harpers Ferry National 
Historical Park worked with the Appalachian National Scenic Trail, the 
U.S. Fish and Wildlife Service, private non-profit organizations, 
conservation organizations, state and local leaders, tourism and 
business interests, land developers, private landowners, and the 
public. Four public meetings were held throughout Jefferson County, 
West Virginia, and one or more meetings were held with each private 
landowner identified in the report. The National Park Service 
transmitted the results of the outreach efforts to Congress in a report 
titled ``Report to the Senate Appropriations Committee of the United 
States Congress on the Public Outreach Program at Harpers Ferry 
National Historical Park, in Harpers Ferry, West Virginia, to Explain 
the Options to Expand the Park's Boundary and Determine if there is a 
Public Consensus for Expansion'' (September 2002). The report concluded 
that there exists an overwhelming public consensus (94 percent) for 
expansion of the park. Support for the expansion is equally strong 
among outreach participants at the local, regional and national levels.
    The land in the proposed park expansion is largely federal. Lands 
held by the U.S. Fish and Wildlife Service and the Appalachian National 
Scenic Trail, which the park currently manages through agreements, 
would be transferred to the Harpers Ferry National Historical Park to 
be administered directly. The total federal acreage in the proposed 
legislation is 772 acres. There are also 368 acres of private land in 
the bill's proposed park expansion that the Secretary of the Interior 
would be authorized to acquire from willing sellers. The Civil War 
Preservation Trust owns 177 acres, which they want to donate to the 
Park, with the remaining 191 acres split among six individual owners. 
For the National Park Service to acquire these lands, the current park 
acreage ceiling of 2,505 acres needs to be increased to 3,745 acres, 
which includes a margin of 100 acres within the new ceiling for survey 
and acquisition corrections.
    No appraisals have been done on the properties included in the 
proposed park expansion; however, based on recent comparable sales of 
property adjacent to the park, the National Park Service believes that 
the land acquisition costs would total approximately $3.7 million to 
acquire all 191 acres of private land. With our proposed amendment, 
land acquisition costs would be negligible since it would be acquired 
through donation or transfer.
    The land in the proposed expansion is mainly forest or agricultural 
farmland that contains a few structures. The National Park Service 
proposes to manage the forested lands as protected viewsheds, and the 
agricultural lands under the park's agricultural leasing program with 
an overlay of public trails and interpretive exhibits for public use 
and enjoyment. We originally estimated development costs to be less 
than $500,000 including projects such as building small parking areas, 
restoring battlefields, developing trails, and creating exhibits. We 
also had estimated operational costs to administer all the land would 
add $150,000 annually to Harpers Ferry's $5.7 million dollar 
operational costs, an increase of less than one percent.
    With our proposed amendment, development costs would be reduced to 
approximately $350,000 and operational costs would be reduced to 
approximately $100,000.
    That concludes my prepared statements, Mr. Chairman. I would be 
pleased to answer any questions you or members of the committee may 
have.

    Senator Thomas. Okay, thank you.
    In the Donelson one, why, it adds 1,400 acres, but--let's 
see, what did you say the cost would be?
    Ms. Masica. Because most of that acreage would be donated.
    Senator Thomas. Donated, I see.
    Ms. Masica. The cost for acquisition is estimated only at 
about $150,000.
    Senator Thomas. I see, okay. And what about private owners 
and so on, are they affected? Will you be taking residential--
--
    Ms. Masica. It would all be on a willing-seller basis.
    Senator Thomas. I see.
    Ms. Masica. There are--of the roughly 700 acres that we 
know about at this point that there's active interest in having 
become a part of the park, about 20 to 23 of those are in 
private hands, and we would have to negotiate, again, on a 
willing-seller basis, with those landowners as funds become 
available.
    Senator Thomas. And then this--your operating costs would 
go up $850,000.
    Ms. Masica. Right, because of the fort--as I understand it, 
the Fort Heiman parcel is on the other side of the river. So 
because it's not contiguous, there would be some--we'd have to 
put an operating presence there, and that's where the costs are 
a little bit higher.
    Senator Thomas. Have to get a canoe.
    [Laughter.]
    Ms. Masica. Part of our Wellness Program.
    Senator Thomas. I see.
    So this one in South Carolina, you don't support because of 
the cost. Is that the idea?
    Ms. Masica. That's correct.
    Senator Thomas. What it is now? It's maintained now as a 
National monument.
    Ms. Masica. It is managed by the Park Service. Its status 
is a national monument. It's about 22,000 acres.
    Senator Thomas. I see. So it is managed by the park now.
    Ms. Masica. Yes, sir.
    Senator Thomas. And the area is controlled by the park.
    Ms. Masica. The parts that are within the boundary--it's 
about 22,000 acres--that is managed and controlled by the Park 
Service.
    Senator Thomas. Who owns the land, then?
    Ms. Masica. The Park Service.
    Senator Thomas. So this is really just designation change, 
largely?
    Ms. Masica. Designation change and an expansion is also 
recommended. The cost is associated with the expansion, not 
with the designation change.
    Senator Thomas. I see.
    The Truman statue, they ask in the bill for an 
authorization. That's just for an authorization to spend the 
money, is that right?
    Ms. Masica. Authorization for us to make a grant. We do not 
have any money budgeted for that.
    Senator Thomas. Nor would you have anything to do with it 
before or after, is that right?
    Ms. Masica. Correct.
    Senator Thomas. This is just authorizing the expenditure. I 
see. Okay.
    Then the land transfer in Harpers would be Federal land, 
under your proposal.
    Ms. Masica. The bill would authorize about 1,200 acres to 
be added to the park. Of that 1,200 acres, almost 800 is 
already owned by the Federal Government, so it would just be 
transferred from the Appalachian Trail and from the Fish and 
Wildlife Service to Harpers Ferry National Historical Park. So 
there would be no acquisition cost associated with that.
    Senator Thomas. And your proposal, your recommendation, is 
to transfer that?
    Ms. Masica. Allow for the transfer--to the inclusion of 
that in the park. And then there's another parcel of 177 acres 
that is owned by the Civil War Preservation Trust, a nonprofit, 
who has expressed a willingness to donate that acreage to the 
park. So, since that would be at no cost, also to allow for 
that.
    Senator Thomas. So it would end up being around--less than 
thousand acres instead of the 1,240 under your recommendation.
    Ms. Masica. In round numbers, yes.
    Senator Thomas. Thank you.
    Senator Bunning.
    Senator Bunning. I'm going to inquire about the Kansas City 
statue of Harry Truman--if that was done with all private 
funds--in other words, if the $50,000, in addition to the 
$275,000 that's already been raised--that was done with total 
private funds, would the Park Service have any objection?
    Ms. Masica. No. There wouldn't be a need for an 
authorization then.
    Senator Bunning. There wouldn't be a need for an 
authorization.
    Ms. Masica. No, because it would be a totally private----
    Senator Bunning. In other words, if we can convince our 
good colleague from Missouri, or our two colleagues from 
Missouri, that if they could get an additional $50,000 donated 
for that statue, we wouldn't be coming to you for anything.
    Ms. Masica. That's my understanding, correct.
    Senator Bunning. Okay. Thank you very much.
    Senator Thomas. Any further questions?
    [No response.]
    Senator Thomas. Okay, thank you.
    Ms. Masica. Thank you.
    Senator Thomas. Appreciate your being here.
    Ms. Masica. All right.
    Senator Thomas. And I look forward to working with you.
    Ms. Masica. Thank you, Mr. Chairman.
    Senator Thomas. On our second panel, we have Debby Spencer, 
vice president, West Kentucky Corporation, Bowling Green, 
Kentucky, Ms. Harriet Hampton-Faucette--I hope that's close--
Columbia, South Carolina, Mr. Dennis Frye, president, Civil War 
Adventures, Sharpsburg, Maryland, and Hattie Fruster, 
president, Lower Richmond NAACP, Hopkins, South Carolina.
    Senator, would you care to introduce----
    Senator Bunning. Thank you, Mr. Chairman.
    I am pleased to introduce, before the Committee, Ms. Debby 
Spencer, from West Kentucky Corporation. Ms. Spencer's 
testimony will further illuminate the importance of preserving 
Fort Heiman for Kentucky and for the United States, and I am 
honored she could join us today.
    I am also happy to see Judge Whitaker, from McLean County, 
Kentucky, here, seated over there. Thank you. Judge Whitaker 
has been instrumental in the efforts to preserve Fort Heiman.
    I would like to thank the committee for its time and 
consideration, and, further, express my sincere hope that the 
Senate and this subcommittee will soon pass S. 524, first out 
of this subcommittee to the full committee, and then to the 
floor for final passage.
    Thank you.
    Senator Thomas. Thank you, sir.
    We'll just go ahead, as listed here, and if you could hold 
your comments to approximately 5 minutes, it would be great, 
and have questions.
    So, Ms. Spencer, would you care to begin?
    Ms. Spencer. Sure.

    STATEMENT OF DEBBY SPENCER, VICE PRESIDENT AND TOURISM 
  DEVELOPMENT SPECIALIST, WEST KENTUCKY CORPORATION, BOWLING 
                           GREEN, KY

    Ms. Spencer. Thank you very much for inviting us here 
today.
    First of all, I want to tell you that I'm originally from 
Missouri, and I'm really excited to hear what Senator Talent 
has proposed. My grandparents actually live in Blue Springs, 
and it would be a major opportunity for my grandfather to see 
something like that happen, because he thinks very highly of 
Truman.
    Senator Thomas. Great.
    Ms. Spencer. Chairman Thomas and members of the committee, 
I would like to thank you for allowing us the opportunity to 
stand before you today to talk about S. 524 in regards to 
expanding the boundaries of Fort Donelson to include Fort 
Heiman. For over 20 years, there has been an effort to save 
Fort Heiman, and it has been, actually, in just the last couple 
of years that it has become even more imperative because of a 
developer who began subdividing the property into individual 
lots. And the shame of all of this is that, where he's 
proposing to put the subdivision is actually in the heart of 
the breastworks of the old fort, and this is actually where you 
can still see the indentations of where the Civil War soldiers 
were buried and also where the cannon once stood.
    This site needs to be preserved for future generations, 
there is no doubt about it, not only to tell the story about 
Fort Heiman, but also, as Senator Bunning mentioned, it's also 
the story about Fort Donelson and Fort Henry, which is three--
the trilogy of the three forts is a story to be told to all.
    Nearly 3 years ago, a Save Fort Heiman Committee was 
formed, made up of representatives from the Kentucky Department 
of Local Government, the Kentucky Transportation Cabinet, 
Kentucky Department of Fish and Wildlife, the Heritage Council, 
Sons of the Confederacy, County Judge Executive from McLean 
County, County Judge Executive from Calloway County, State 
Senator Jackson, State Representative Buckingham, Michael Pape, 
with Congressman Whitfield's office, has served on that 
committee, as has T. C. Freeman, from Senator Bunning's office. 
We have also had Congressman Tanner involved in the effort, and 
Civil War Trust, and the State of Tennessee's Civil War group 
has been actively involved. I mean, this just shows you how 
important this is. They all support the initiative, and they're 
also supportive of the bill and the companion bill that has 
just come through the House, which is H.R. 646.
    We've held numerous community-awareness meetings in both 
Calloway County and Dover, Tennessee, in which over 300 people 
attended. We have kept each and every one of them informed, as 
well as people all over the United States who have expressed an 
interest. We've done this through e-mail and through an 
extensive Web site.
    We determined that the only way we could save Fort Heiman 
was to raise the money to purchase the property and then give 
it to the national park. We estimated that it would cost over a 
million dollars to do this, to purchase all the land, so we 
began writing grants. In 2002, we actually received a grant for 
$600,000 from transportation enhancement funds, but then we had 
to come up with the 20-percent matching, which was a challenge 
to us. But people came forward.
    Sons of Confederacy, there was an individual who came 
forward and said that he would disk and seed a large portion of 
the property so we could get it back to the native grasses of 
what it used to look like when it was the Civil War site.
    We also had--Fish and Wildlife came forward and said they 
would provide seed at no cost. They donated that. And the 
Calloway County Fiscal Court came forward, and they said that 
they would provide manpower to actually clear the land and 
remove the undergrowth and the scrub brush so we could plant 
the seeds and also maintain the roads to the site.
    People are working together to make this happen. We have 
also received a $75,000 grant from Land and Water Conservation. 
And, in 2003, the Kentucky Heritage Land Conservation Fund 
Board, which gets their money from license plates in Kentucky, 
awarded the project $105,000 to help pay for surveys and 
appraisals and other incidental costs, with the promise that we 
could have an additional $250,000, when needed, for land 
acquisition. We have now raised over $1 million.
    On September 23, we actually purchased a major portion of 
the property. We're now working with each of the individual 
landowners that had the small lots in the subdivision, to 
purchase that property, as well, and we're in the process of 
that.
    West Kentucky Corporation and Murray State University have 
agreed to provide office space within Calloway County for the 
National Park Service until which time we can build a structure 
on the site. And, I mean, we're working as best we can to 
fulfill every need.
    S. 524 allows us to give the property to the national park. 
Please do not let this be in vain. We really request that you 
consider Senator Bunning's S. 524 with your utmost 
consideration. Please consider this bill.
    Chairman Thomas, all of us who have been involved in this 
initiative thank you and the committee members for allowing us 
to testify today. Thank you very much.
    [The prepared statement of Ms. Spencer follows:]
    Prepared Statement of Debby Spencer, Vice President and Tourism 
  Development Specialist, West Kentucky Corporation, Bowling Green, KY
    Thank you Chairman Thomas and members of the Committee for allowing 
me the opportunity to speak on behalf of S. 524, which is sponsored by 
Senator Bunning and supported by the West Kentucky Corporation, local 
elected officials and most importantly the people of the Commonwealth 
of Kentucky.
    For over 20 years, an effort has been underway to preserve Fort 
Heiman.
    Nearly three years ago, a ``Save Fort Heiman'' Committee was formed 
that included representation from the KY Department of Local 
Government, KY Department of Transportation, Kentucky Heritage Council, 
Sons of the Confederacy, Murray State University, Kentucky Department 
of Fish and Wildlife Resources, West Kentucky Corporation and included 
Calloway County Judge Executive Larry Elkins, McLean County Judge 
Executive Larry Whitaker, State Senator Jackson, State Representative 
Buckingham, Michael Pape with Congressman Whitfield's office, and T.C. 
Freeman with Congressman Bunning's office as active members. 
Representatives of Congressman Tanner, the Civil War Trust, and the 
Tennessee State Civil War group have also been kept abreast and are 
supportive of this bill and its companion H.R. 646.
    Community Awareness Meetings were held in both Calloway County, 
Kentucky and Dover, Tennessee. More than 300 citizens attending those 
public meetings have expressed their strong support for the initiative 
in writing and are kept informed of any happenings through e-mails and 
West Kentucky's website developed through cooperation with our other 
offices at the campus of Western Kentucky University in Bowling Green, 
Kentucky.
    In addition, three grants written as well as site visits conducted 
by numerous agencies and individuals.
    In 2002, a grant of $600,000 from TEA-21 funds was received for 
land acquisition. The 20% match came in the form of land donation as 
well as donated labor for disking and seeding the primary property of 
25 acres (with a value of $25,000); Kentucky Department of Fish and 
Wildlife agreed to donate seed to return the area to native grasses and 
the Calloway County Fiscal Court has promised assistance in removal of 
scrub trees, undergrowth and road maintenance to the site.
    An additional $75,000 grant was received from Land and Water 
Conservation and in 2003, the Kentucky Heritage Land Conservation Fund 
Board awarded $105,000 for surveys, appraisals and land acquisition 
with the understanding that an additional $250,000 would be available 
in the future for additional land acquisition.
    West Kentucky Corporation and Murray State University have agreed 
to provide office space until which time a structure can be built on 
site.
    Most recently, on September 23rd, tentatively, a check presentation 
was held in Murray for the purchase of the land from Dr. Jackson.
    West Kentucky Cooperation has been and continues to be the synergy 
at the local level behind this initiative to save Ft. Heiman.
    Mr. Chairman, I am applaud the spirit and intent of federal policy 
that the committee has promulgated over the years in its effort to both 
establish and preserve those lands which are of such national 
significance. It is with that thought that I come before you today, 
asking the Committee to give favorable consideration to this bill. Last 
November, with the passage of the Civil War Battlefield Preservation 
Act a federal precedence was given that recognizes the true historic 
treasures that these historic sites pose for our nation. I respectfully 
defer the more pertinent historic information attributed to S. 524 to 
the National Park Service and Senator Bunning's remarks. Rather, my 
testimony and appearance this afternoon is directed toward the example 
of cooperation that can exist between government, all levels of 
government, and our respective constituency. The opportunity to build 
upon that cooperative spirit is present at this very moment with the 
Committee's passage of S. 524.
    We ask that the federal government, through its representation on 
this Senate Committee, as well as the House Subcommittee on National 
Parks, Recreation and Public Land to partner with entities of local, 
regional, and state government; thereby furthering the interests of the 
general public through the long-term preservation and interpretation of 
Ft. Heiman and Ft. Henry.
    Passage of S. 524 conveys the federal government's approval of 
local governments cooperating, regionally, without regard to geo-
political or socioeconomic differences and the responsibility we both 
must acknowledge when such an initiative arises from the a local 
initiative that has garner overwhelming public support.
    The boundary expansion of Ft. Donelson so stated in S. 524 to 
include Ft. Heiman will enable this Committee to acknowledge the 
response to a local initiative, which they has already garnered 
overwhelming public support. Please give S. 524 your greatest 
consideration.
    Thank you, Chairman Thomas, and each member of the Committee for 
hearing my testimony today on behalf of Senator Bunning's bill, S. 524, 
Judge Elkins and Calloway County Fiscal Court, West Kentucky 
Corporation, and the people of Kentucky.

    Senator Thomas. Thank you very much. I appreciate your 
being here.
    Mr. Frye.

            STATEMENT OF DENNIS E. FRYE, PRESIDENT, 
              CIVIL WAR ADVENTURES, SHARPSBURG, MD

    Mr. Frye. Mr. Chairman, members of the committee, I'm here 
to speak on behalf of S. 1576, introduced by Senator Byrd and 
cosponsored by Senator Rockefeller, which involves the 
expansion of the boundary at Harper's Ferry National Historical 
Park.
    I, personally, feel very gratified to be here today and be 
asked by Senator Byrd's office to be here, because I have 20 
years of my life invested in Harper's Ferry National Park, 
working there as a ranger and historian and, eventually, the 
chief historian. And so today I'm in the private sector, and 
I'm pleased to be able to be here to speak in support of this 
bill.
    The administration noted that much of the land is Federal 
property, and that is true. And they also noted that they had 
an objection to bringing in various private parcels that are 
not part of this Federal property at this time. I would submit 
to you, Mr. Chairman, that that would be like going to the 
Gettysburg Battlefield and taking a huge chunk out of Cemetery 
Ridge--or Seminary Ridge in the heart of the battlefield, and 
not including it simply because it was private property, 
completely ignoring the significance of the history that 
occurred at that site.
    This bill will complete the battlefield, it will protect it 
in its entirety, and it will do a fine job of opening it up for 
public visitation and giving us very--excellent interpretation 
of that site.
    So I hope that you will consider the bill that has been 
submitted by Senator Byrd, cosponsored by Senator Rockefeller, 
in its entirety, because if we don't take care of that ground 
now and include it in the park boundary, the potential expense 
in the future will be much greater--much, much greater than it 
is today.
    Jefferson County is one of the fastest-growing counties in 
the State of West Virginia, and we are very fortunate that this 
area still retains so much of its historical integrity. So I do 
urge you to move in support of this bill so that we may see the 
completion of the battlefield, and to protect it for our 
future.
    I would like to add, in conclusion, Mr. Chairman, that this 
has been a effort that's been conducted on a very broad scale. 
It's been a very democratic process. We like to think of the 
creation of our national parks being democratic, and this one 
of the best examples that I can think up. We have worked, for 
the last 15 years, diligently in the community to raise 
awareness of the significance of this site, and we've had 
tremendous success in building a consensus on behalf of the 
protection of this battlefield. Not only have we been 
successful locally, in working with the county, county 
officials, and State officials, but we also have been very, 
very successful in bringing nationally significant groups, such 
as the National Parks and Conservation Association, the 
National Parks Trust, and the Trust for Public Lands.
    And, finally, I'd like to state that two organizations have 
been very active in supporting this and have been non-failing 
in their persistence to bring about success here, and that 
would be the Friends of Harpers Ferry Park and the Harpers 
Ferry Conservancy, representatives which we have here today. I 
want to acknowledge their excellent help in bringing this to 
the attention of our West Virginia representatives and having 
the opportunity to bring it to you here today.
    We look forward to including this in the park, opening it 
up to future public interpretation, and finally having a 
boundary around Harpers Ferry, Mr. Chairman, that will truly 
preserve the significant historical resources that are there, 
especially these Civil War resources.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Frye follows:]
Prepared Statement of Dennis E. Frye, President, Civil War Adventures, 
                             Sharpsburg, MD
    Dear Senator Thomas and fellow members of the Committee: I am 
extremely honored to appear before you today to testify on behalf of S. 
1576 a bill to revise the boundary of Harpers Ferry National Historical 
Park.
Appreciation to Senator Byrd
    First, however, I must acknowledge the vision and persistence of 
Senator Byrd in introducing this significant legislation. Senator Byrd 
has worked tirelessly to preserve and protect Harpers Ferry Park for 
nearly fifty years. Senator Byrd was the first to appreciate that 
threatened historic resources existed just west and south of the 
present park boundary in Jefferson County, West Virginia. In 1988, 
Senator Byrd mandated that the National Park Service conduct a Special 
Boundary Study to identify these historic sites and make the public 
aware of their existence. Through the leadership of Senator Byrd, 
Harpers Ferry received national attention as a Priority I Civil War 
battlefield in 1993, spotlighting the uncertain future of Harpers 
Ferry's threatened historic resources. In 2000, the Senate 
Appropriations Committee (through Senator Byrd) instructed the National 
Park Service to conduct public hearings to determine the will of the 
people regarding the expansion of the park boundary to preserve and 
interpret these historic sites. The overwhelming affirmative response 
from the public inspired Senator Byrd to introduce S. 1576. We are 
grateful.
My Involvement
    As former Staff Historian and later Chief of Interpretation & 
Cultural Resources Management at Harpers Ferry NHP, I am intimately 
familiar with the park's complex and layered history. I worked at 
Harpers Ferry Park for 20 years, and during that time, my research 
discovered nationally significant historic resources that were excluded 
from park protection and interpretation. To inform the public about 
these resources and potential threats to their integrity, I wrote 
articles for publication in national Civil War magazines and news 
journals; lectured to interest groups across the nation; offered guided 
tours and visits to the sites; engaged national preservation 
organizations; and sought opportunities for positive media coverage. I 
also inaugurated an educational program for Jefferson County grade 
school students that culminated in an annual field trip to one of the 
principal historic sites. In addition, I initiated land preservation 
opportunities with the Civil War Trust, the Association for the 
Preservation of Civil War Sites, and the Civil War Preservation Trust, 
which resulted in the acquisition of nearly 230 acres of pristine 
battlefield adjacent to the park boundary.
Superintendent Campbell's Leadership
    Donald W. Campbell, the masterful and incomparable Superintendent 
of Harpers Ferry Park for the past 24 years, embraced my research and 
discoveries, and he quickly grasped the value and potential threats to 
the historic resources located adjacent to the park's present boundary. 
For the past 15 years, Superintendent Campbell has responded to Senator 
Byrd's mandates to:

          1) publicly identify these resources;
          2) assess their condition and significance;
          3) inform and educate both local and national communities 
        about their existence;
          4) consult with constituent groups (such as Friends of 
        Harpers Ferry Park, the Harpers Ferry Conservancy, the 
        Jefferson County NAACP, and national preservation 
        organizations);
          5) meet and work directly with private landowners to 
        accommodate their interests and concerns;
          6) apprise elected officials at local, state, and national 
        levels about ongoing preservation efforts.

    This mammoth task has required dozens of meetings, hundreds of 
hours, and thousands of people. But Superintendent Campbell's 
extraordinary persistence, leadership, and vision generated the 
momentum and consensus necessary to permit Senator Byrd to introduce 
legislation to expand the Harpers Ferry Park boundary.
Current Boundary Acreage Maximized
    Inclusion of the Murphy Farm and several smaller tracts within the 
Harpers Ferry NHP boundary in 2003 maximized the park at its acreage 
ceiling of 2,505 acres.
    Superintendent Campbell cooperated with an extensive local and 
national coalition that produced the recently concluded acquisition of 
the Murphy Farm. This extraordinary 100-acre site, comprising the 
southern portion of Bolivar Heights, is the location of Confederate 
General A. P. Hill's flanking maneuver that ensured the largest 
surrender of United States troops during the Civil War on September 15, 
1862. It also served as home to the relocated John Brown Fort from 
1895-1909, where Civil Rights activist W.E.B. Dubois and 100 members of 
the 1906 Niagara Movement conference made a pilgrimage in 1906.
    Through Superintendent Campbell's diligent and protracted 
relationship with Jim Murphy and his mother Josephine Murphy Curtis who 
tirelessly worked to preserve their farm and the memory of their 
ancestors the National Park Service completed acquisition of the Murphy 
Farm in 2003, whereupon it was included within the park.
Expanded Boundary Will Protect Additional Historic Sites
    The National Park Service boundary report, completed in September, 
2002 (and since revised), recommends adding 1,240 acres to the park. 
This will expand the boundary to a total of 3,745 acres.
    Of the 1,240 acres, nearly 63% (772 acres) already are owned by the 
federal government. This acreage is adjacent to, but not within, the 
present park boundary. The historic resources within this federal 
acreage are located on the southern end of School House Ridge and on 
Loudoun Heights.
    The School House Ridge federal property has been identified as 
``Jackson's right flank.'' On September 13-14, 1862, during Stonewall 
Jackson's siege of Harpers Ferry, Confederate General A. P. Hill's 
division occupied this position, and from here, it embarked on its 
successful flanking maneuver to the Murphy Farm. The federal government 
owns 267 acres at this site, all of which will be included within the 
expanded park boundary.
    The Loudoun Heights tract consists of 375 federally-owned acres, 
currently administered by the Appalachian National Scenic Trail. This 
property, which is rich in Civil War archeological resources, was 
donated to the United States, ultimately to be included within Harpers 
Ferry NHP. The expanded boundary will permit these sensitive Civil War 
resources to receive appropriate protection and preservation treatment, 
as well as honor the original intent of the donor.
    Of the remaining 368 private acres to be included within the new 
boundary, 48% (177 acres) is owned by the Civil War Preservation Trust 
on School House Ridge. CWPT acquired this property in 2002 for the 
express purpose of donating it to Harpers Ferry NHP. The boundary 
expansion will permit this donation as well as permit public access to 
and interpretation of Stonewall Jackson's 1862 siege battlefield.
    This leaves 291 acres of private land (or 23% of the 1,240-acre 
boundary expansion). The bulk of this is included within five tracts, 
and property owners have been made aware of the expansion proposal and 
the historical significance of their lands. Most of this land is 
located on School House Ridge, where Stonewall Jackson placed nearly 
15,000 men during his 1862 investment of Harpers Ferry. Inclusion of 
this property within the expanded boundary is necessary to protect 
Jackson's battlefield and eventually offer a complete interpretation of 
the military actions that transpired here.
Conclusion
    I urge the members of the Senate Subcommittee on National Parks to 
support S. 1576, co-sponsored by Senators Byrd and Rockefeller. Both 
senators recognize the importance of including the nationally 
significant resources on School House Ridge and Loudoun Heights within 
the protection of Harpers Ferry National Historical Park. Both senators 
understand the economic benefits West Virginia derives from the 
preservation of Harpers Ferry. Both senators have witnessed the public 
support for expansion of the boundary by 1,240 acres to a maximum of 
3,745 acres. Thank you for offering your support to Senators Byrd and 
Rockefeller and S. 1576.

    Senator Thomas. Thank you very much.
    Mrs. Hampton.

            STATEMENT OF HARRIET HAMPTON-FAUCETTE, 
                          COLUMBIA, SC

    Mrs. Hampton-Faucette. Chairman Thomas and the rest of the 
committee, I'm very honored to be invited to speak here today 
in support of S. 1313, Senator Hollings' Congaree National Park 
Act, which expands the boundary of Congaree Swamp National 
Monument and changes the designation to the Congaree National 
Park.
    I'm here today not only as a lifelong resident of Richland 
County, but also as a board member of Friends of the Congaree 
Swamp, which is a very active and passionate support group for 
this park. In fact, the Friends have raised a great deal of 
money and have just completed building a substantial picnic 
shelter for visitors to the park, and that did not cost the 
National Park Service any money to put that up. And we continue 
to raise money. And everything that we contribute is, of 
course, to National Park specifications.
    Since we began this journey 2 years ago, I've been amazed 
at the outpouring of support from business and environmental 
communities in the State of South Carolina and nationally. I'd 
like to present these letters from people in South Carolina.
    As Senator Hollings mentioned, this legislation is also 
supported by Richland County Council, the South Carolina 
Department of Natural Resources, the S.C. Department of Parks, 
Recreation, and Tourism, Greater Columbia Chamber of Commerce, 
Sierra Club, South Carolina Wildlife Federation, the University 
of South Carolina Department of Geology, and others.
    This area is a personal passion of mine, because I have 
been in all of the majestic trees there since I was a child and 
went there with my father. My father, the late Harry Hampton, 
fought for decades, long before environment and wilderness 
preservation were popular causes, to have this unique area 
preserved for future generations. He fought a one-man battle, 
made a lot of enemies, met a lot of opposition to try to raise 
public interest in this largest tract of virgin, old-growth 
hardwood bottomland forest on North America.
    I witnessed my father, when I was growing up, driving his 
little yellow Ford all over the State, making speeches to 
sportsmen's groups, and they were often hostile. He would come 
home exhausted. He was sometimes even booed after his speeches. 
But he never gave up. Even his own family thought of him as 
``crazy old Harry, the family eccentric.'' He's now recognized 
as a visionary that left a lasting legacy.
    In the 1970s, a younger group of environmental activists 
joined the fight, and, thanks to them, in 1976 Congress passed 
a bill declaring the Congaree Swamp National Monument a 
reality. My father passed away in 1980, but he had lived to see 
that his beloved Congaree would be preserved. Subsequently, the 
visitor's center there was named for my father in response to a 
petition signed by thousands of people who knew of his efforts.
    The swamp is actually a floodplain and was designated as a 
monument due to the small land mass initially included. With 
the expansion in 1989 and this proposed additional acreage, it 
is only right to appropriately designate the area as a national 
park. It has the historical, cultural, ecological, and 
geographical criteria to warrant national park status.
    The proposed acquisition of this additional approximately 
4,600 acres voluntarily offered for sale by private landowners 
would be invaluable in protecting this unique and pristine 
ecosystem. Studies for the National Park Service have found no 
other area in the Southeast of comparable geological and 
biological significance.
    I understand that Hattie Fruster is here today testifying 
on behalf of some landowners in Richland County, and their 
opposition to this. Believe me, nobody understands better than 
I do the desire to keep long-held family land in private 
ownership. No one is being targeted to give up their land. 
These people who are offering their land for acquisition came 
forward willingly, wanting their land to be added to the 
preserve, the park, and wanting their property to be part of 
the legacy for future generations.
    I cannot stress enough the importance of this legislation 
to the State of South Carolina and the Nation as a whole. Crazy 
Harry is definitely smiling down on us today.
    Again, I thank you for holding the hearing today, and I do 
urge the Committee's support. I thank you very much.
    [The prepared statement of Mrs. Hampton-Faucette follows:]
      Prepared Statement of Harriet Hampton-Faucette, Columbia, SC
    Good morning. Chairman Thomas and Ranking Member Akaka, I am 
honored to be invited to address you in support of S. 1313, Senator 
Hollings' Congaree National Park Act, which expands the boundary of the 
Congaree Swamp National Monument and changes the designation to the 
Congaree National Park. I am here today as not only a lifelong resident 
of Richland County but a Board Member of the Friends of the Congaree 
Swamp. Since we began this journey two years ago, I have been amazed at 
the outpouring of support from the business and environmental 
communities both in the State of South Carolina and nationally.
    This area is a personal passion of mine. My father, the late Harry 
Hampton, fought for decades--long before the environment and wilderness 
conservation were popular causes--to have this unique area preserved 
for future generations. He fought a one-man battle, writing newspaper 
editorials and in his outdoor column, ``Woods and Waters,'' pleading to 
raise public interest in the largest tract of virgin, old-growth 
hardwood bottomland forest in the East. Growing up, I witnessed my 
father writing newspaper articles, letters to officials, and driving 
his little yellow Ford all over the state to make speeches to various 
sportsmen's groups, returning late at night in a state of exhaustion 
after speaking to audiences that were so often hostile. But he never 
gave up. My father received almost no support in his efforts, even from 
his own family; I recall family dinners where my uncles ridiculed him 
for his passionate speeches on behalf of the need to preserve the 
Congaree. The family treated him like ``crazy old Harry,'' the family 
eccentric whereas he is now recognized as a man who left a lasting 
legacy and was a pioneer in the field of wildlife and environmental 
conservation.
    For many years, a hunting and fishing club my father belonged to 
had leased rights from the timber company that owned the Congaree. Some 
of my father's hunting buddies told me that it was obvious Harry's main 
interest was not in bagging game. When a covey of birds or flock of 
ducks flew over, someone would say, ``Where's Harry?'' My father would 
be out wandering among the champion trees, admiring them and pondering 
how to save them from becoming coffee tables or night stands. It's not 
surprising that other members of the club were violently opposed to my 
father's desire to have their playground taken away and made a 
federally protected wilderness. I am now in awe of my father's vision 
and commitment and his refusal to give up, despite the abuse heaped on 
him by many; he was even ``booed'' after some of his speeches.
    Thanks to younger environmental activists who appeared on the scene 
in the 1970s, my father's dream became a reality when in 1976 Congress 
passed a bill creating the Congaree Swamp National Monument. My father 
passed away in 1980 but he lived to see that his beloved Congaree would 
be preserved and to celebrate with his fellow environmental 
conservationists! In response to a petition signed by several thousand 
people who knew of my father's efforts, Congress passed legislation in 
1984 approving the naming of the monument's guest and staff facility 
the Harry Hampton Visitors Center.
    The Congaree Swamp, which is actually a flood plain, was designated 
as a monument due to the small land mass initially included. With the 
expansion in 1989 and this additional acreage, it is only right to 
appropriately designate this area as a National Park. The proposed 
acquisition of this additional 4,600 acres would be invaluable in 
protecting this unique, pristine ecosystem--recognized as part of the 
international biosphere reserve. Studies by the National Park Service 
have found no other area in the Southeast of comparable geological and 
biological significance. The properties involved are being offered for 
sale by private landowners who have come forward requesting their 
properties be conserved as part of the park. Should the additional 
acreage be added to the park, this acquisition would in no way affect 
adjacent land owners property rights.
    The worldwide significance of the Congaree was brought home to me 
recently when I had breakfast with a friend from Tennessee who had 
recently returned from a trip with other naturalists to the Amazon. 
Around their campfire one night, they were discussing biodiversity and 
the international biosphere. My friend asked, ``Isn't there ANY place 
in the Southeast that qualifies?'' The answer from a companion who 
lives on the West Coast : ``Remember the Congaree Swamp!''
    Thank you for holding this hearing today. I urge the Committee's 
support.

    Senator Thomas. Okay, thank you very much.
    Ms. Fruster.

            STATEMENT OF HATTIE FRUSTER, PRESIDENT, 
               LOWER RICHLAND NAACP, HOPKINS, SC

    Ms. Fruster. Mr. Chairman, I would like to thank you very 
much for letting me and others come before you today to speak 
about the Congaree Swamp.
    My name is Hattie Fruster. I'm president of the Lower 
Richland Chapter of the NAACP. I was born and reared in 
Richland County, Lower Richland County. I also own property in 
Lower Richland County. I have traveled here today from a rural 
community in Lower Richland County, outside the State capital, 
to ask you to oppose changing the designation of the Congaree 
Swamp from a national monument to a national park, as well as 
to oppose changing the size or scope of the swamp. If you allow 
these changes to take place, you will threaten our homes, 
churches, farms, rights, and children's inheritance. You will 
affect an area that is already under siege by county council. 
It is trying to grab 330 acres--330 square miles of our private 
property through restriction, down-zoning in the name of 
preservation. They're doing it with a land-use plan called Town 
and Country. This plan named all 330 square miles of our land 
in Lower Richland the Congaree Preserve.
    Young, old, black, white, Democratic, Republican, Liberals, 
and Conservatives, and people from all income levels have come 
together to oppose this park.
    The land the national park will affect is the same land we 
are fighting to save from the county. It was acquired by 
families as freed slaves. Lower Richland is the largest 
contiguous land mass on the east coast that is still 
predominantly Afro-Americans-owned. It is also the largest mass 
of nearly all farmland that is within a 15-mile drive of the 
metropolitan city, State capital, and on the east coast. There 
is a gold mine in the real estate in Lower Richland, and it's 
not for sale.
    We appreciated being heard by you today. We did not bring a 
crowd, but we do have representatives here from South Carolina 
Property Rights, Moving Forward, Lower Richland NAACP, and we 
also have some with us today have already lost their land that 
they inherited from slavery, to the Congaree Monument.
    National Parks can condemn land. All across the country, 
property rights and property values are being threatened by 
National Parks, and the extreme conservatives are allowed to 
make decisions concerning them.
    The Congaree National Monument is already a national 
wilderness area. There is no vehicle, roads, or we cannot cut 
our trees. We have seen the Nature Conservancy map and maps of 
South Carolina farmland. It's a program that both shows miles 
of restricted buffer zones on the private property around--that 
allows extending around preserve areas across a river of 
Calhoun and Lexington Counties, plus huge areas called 
``corridors.'' They go all the way from the core area of 
Columbia and to the Sumter County line. Restricting these areas 
that would wipe out more counties of private property.
    We just learned that, years ago, the Congaree Monument was 
designated as a United Nations Biosphere Reserve. This was done 
without citizens' input and without the approval of the 
Congaree, who mostly ultimately gave up authority over the 
preserve.
    The Biosphere Reserve Program clearly calls for the taking 
of private property. According to the United Nations, land must 
be available through appropriate zoning for a preserve core. 
The parks--are often restricted areas, a buffer zone of private 
property around the reserve.
    [The prepared statement of Ms. Fruster follows:]
Prepared Statement of Hattie Fruster, President, Lower Richmond NAACP, 
                              Hopkins, SC
    First, I would like to thank Chairman Thomas, Ranking Member 
Dorgan, and the other distinguished members of the Committee for the 
opportunity to speak here today.
    I'm Hattie Fruster, President of the Lower Richland NAACP. I have 
traveled here from Hopkins, SC, a rural community in Richland County, 
outside our state capital of Columbia, to ask you to OPPOSE changing 
the designation of the Congaree Swamp from a National Monument to a 
National Park, as well as to oppose changing the size or scope of the 
swamp. If you allow these changes to take place, as are provided in 
Senator Hollings' bill, S. 1313, you will threaten our homes, churches, 
farms, rights, and children's inheritance. You will also increase 
federal presence in an area that is already under siege by Richland 
County Council who, guided by local extreme environmentalists, is 
already seeking to grab 330 square miles of our private property 
through restrictive zoning, under the guise of ``preservation.'' This 
is being done by passing an intrusive comprehensive land use plan, 
called the Town and Country Plan, which will be implemented by 
downzoning our land in Lower Richland. They have named our entire area 
``the Congaree Preserve.''
    Even though it was passed in 1999, we have held up the restrictive 
zoning associated with our Plan for nearly 5 years.
    In addition, the SC legislature just passed a law, the Conservation 
Bank Act, to fund designated land trusts with $50 million per year to 
grab up more land from us (by acquiring title) and land rights (by 
acquiring conservation easements). That's a million dollars a week for 
at least 10 years.
    Our comprehensive land use Plan targets minorities, and will result 
in segregation and gentrification, but it will also negatively affect 
every property owner in the county. That's why our people--YOUNG, OLD, 
BLACK, WHITE, DEMOCRAT, REPUBLICAN, LIBERAL AND CONSERVATIVE, AND 
people from ALL INCOME LEVELS, have come together to oppose it.
    The land the National Park will affect is the same land we are 
fighting to save from the County, much of which was acquired by 
families as freed slaves. That someone wants our land is no accident. 
Lower Richland is the largest contiguous land mass on the East Coast 
that is still predominately African-American owned. It is also the 
largest mass of nearly all pristine farmland that is within a 15 minute 
drive of a major metropolitan city, or state capital, on the east 
coast. There is a gold mine in real estate, and it's NOT FOR SALE.
    Turning the Congaree Swamp into a National Park will add the power 
of the federal government to the bitter struggle that is already going 
on in SC over land which we have been loving stewards of for centuries.
    We appreciate being heard by you. Unfortunately, we were not told 
we could speak until it was too late to get together a crowd of our 
people to come with us. We work, sometimes two and three jobs, and a 
trip to Washington with two days notice is difficult. Still, I have 
brought some of those today who have been involved for years in our 
fight for property rights. I wish you could hear from them all. But 
since that's not possible, you will be hearing their voices when I 
speak, because we are all of one accord. Kay and Bill McClanahan are 
here with the SC Property Rights Watch and Richland Landowners 
Association. Lilly Bates, our Vice President of the Lower Richland 
NAACP, is here. We have members of the Moving Forward Association. We 
also brought someone who has already lost the land her family acquired 
as freed slaves, when the swamp became a National Monument, and we have 
people here who most assuredly will lose their family land once the 
Monument becomes a Park. Please don't believe others when they say that 
this will not happen. We are the proof.
    Changing the Congaree Swamp from a Monument to a National Park 
involves much more than changing the name. National Parks can condemn 
land. If you allow this change to take place, it is just a matter of 
time before they take our farms and homes around the swamp.
    All across this country, property rights and property values are 
being threatened by National Parks and the extreme environmentalists 
who are being allowed to make key decisions concerning them.
    The Nature Conservancy is involved in this. We're told they are the 
ones making the arrangements for the expansion of the swamp. Nature 
Conservancy is under Congressional investigation because of their 
Enron-like business practices with land they have acquired, often using 
our tax dollars. The Sierra Club is already applauding this bill and 
asking for expansion of the park. They do not care what the impact will 
be on the people who live beside or near it. They just pushed to ban 
all commercial harvesting of trees on all national forest land, 
including SC's Sumter and Francis Marion National Forests. They are 
opposing the bill before this Senate to allow the Forestry Service to 
protect our nation's trees from wildfires, like those which are 
ravaging the West.
    The Congaree National Monument is already a National Wilderness 
area, where no motorized vehicles are allowed, no roads, and no tree 
cutting. We have seen a map prepared by the Nature Conservancy showing 
great big buffer zones on our private property around the swamp, and 
another which is an official part of the SC Forestland Legacy Program 
which shows the core area of the swamp and miles of buffer zones around 
it, plus huge areas called ``corridors'' which go all the way into the 
City of Columbia and into Sumter county, all of which will be 
restricted. Some core and all the buffer and corridor land is private 
property. The core area found in Calhoun County, Lexington County, and 
Richland County and it's buffer zones and corridors could easily wipe 
out several counties of our private property.
    Things have already happened at the Congaree Swamp which should 
have been shared with the people who live down there, and with our 
Congress. We just learned that, years ago, the Congaree Monument was 
designated as a United Nations Biosphere Reserve (The South Atlantic 
Coastal Plain Biosphere Reserve) through the Man and Biosphere (MAB) 
Program of UNESCO. This should never have been allowed to happen. It 
was done without citizens' input and without the approval of Congress, 
who must ultimately give up authority over the property in it. Please 
do not let anyone tell you that the UN does not control these areas. 
Yellowstone National Park has nearly been put OFF LIMITS to the 
American people, and the American government must now report to the 
United Nations every year in order for it to be able to continue to 
function. This can happen to us in SC.
    The Biosphere Reserve program clearly calls for the destruction of 
private property rights. Some states have opposed it outright. We 
oppose it as well. According to the UN, in order to qualify to be a 
biosphere reserve, land must be available ``through appropriate 
zonation''--that's a quote--for: a preserved ``core,'' which is the 
Park or other restricted area; a ``buffer zone'' or zones around the 
core, which includes private property, where according to the UN, human 
activities are to be managed, and finally; an area outside the buffers 
where sustainable ``Smart Growth'' management practices'' are used. The 
Town and Country Comprehensive Land Use Plan will clearly provide the 
zoning necessary to extend the tentacles of the swamp's biosphere 
reserve out into our private property.
    We need your help, not to further weaken us, but to save us. If you 
change anything at the swamp right now, you'll be helping the other 
side.
    Sustainable development or ``Smart Growth,'' as it is called, is an 
elitist, radical environmental policy which has become a cancer to this 
nation. Sustainable development, buffer zones on private property, 
restriction of our lives and futures--is all part of a UN Treaty that 
was rejected by this U.S. Senate in 1994. Surprisingly, even though YOU 
refused to embrace this radical concept, we are seeing its 
implementation everywhere.
    Everything I am saying today is documented. Our proof came from the 
United Nations, Congaree Swamp, National Parks, official governmental 
maps, leading experts' commentary, media news, and some of the many 
citizens' groups who have been affected by similar land-use 
restrictions. I will also be happy to provide you with names of people 
from other states who have fallen victim to a National Park.
    Please oppose this measure and end ALL designations at the Congaree 
Swamp that could erode Congress' own authority over it, or the rights 
of people who own property around it.
    This bill is finally the explanation for us why all our private 
property in Lower Richland County has been designated as the ``Congaree 
Preserve,'' and why we have been targeted for the most aggressive land-
grab and social engineering project in the history of America.
    Our Plan will purge an entire income level of people from our 
county, many of whom will be African American families who have owned 
their land since slavery. Surely you don't want to be a part of that.
    Please don't do this. Don't spend another dime on it. We have so 
many truly worthy causes that need your attention. The children, the 
poor, and the elderly of SC and across our country need your help. The 
Congaree Swamp does not.
    Thank you for allowing me and my friends and neighbors to join you 
today.
    God bless you and God bless America.

    Senator Thomas. Thank you.
    Ms. Fruster. Thank you.
    Senator Thomas. Thanks to all of you.
    Just a couple of short questions. Ms. Spencer, some of this 
land that you're talking about, then, has been set up for 
subdivisions in the future. Is that correct?
    Ms. Spencer. That's correct.
    Senator Thomas. What arrangements? Is this all willing-
buyer arrangement?
    Ms. Spencer. There's about 20 landowners that own lots in 
there. We have talked to a number of them, and they are willing 
sellers. Right now, we're trying to appraise the properties to 
find out what the appraisal price will be, and then we will 
negotiate with them. But, as of, you know, thus far, we've had 
some willing sellers.
    Senator Thomas. And so the cost to the Park Service is just 
going to be the subsequent management of that.
    Ms. Spencer. Right. We will give them all of the property 
that we are able to acquire.
    Senator Thomas. And that will be a park. All of it will be 
a park.
    Ms. Spencer. Yes.
    Senator Thomas. Mr. Frye, how long has the Harpers Ferry 
Park been there?
    Mr. Frye. Harpers Ferry Park was established, Mr. Chairman, 
in 1944, so we're coming up on the 60th anniversary next year.
    Senator Thomas. And you've felt, the whole time, that you 
weren't complete?
    Mr. Frye. That is correct, yes, sir. The park has actually 
expanded numerous times from it's original boundary, so this 
will not be the first. It's not unprecedented to----
    Senator Thomas. Will it be the last?
    Mr. Frye. I hope, in West Virginia, that'll be the case, 
yes, sir. We certainly hope so.
    Senator Thomas. I'm a little more sensitive, I guess, about 
that than most people. I live in a State that's already 50 
percent federally owned, and at some point I think, you know, 
we're going to have to have some--either some tradeoffs or 
something so that Federal land ownership doesn't continue to 
grow. Now, in your State I suppose that's not as much of an 
issue.
    Mr. Frye. It is not. This represents a very small 
percentage of the overall land mass in Jefferson County, as 
well, Mr. Chairman. And, again, we've worked very hard to build 
public consensus there, locally and regionally, in support of 
this.
    Senator Thomas. So that would be willing sellers, as well.
    Mr. Frye. That's correct. All the private-property parcel-
owners have been contacted, and we've been working with them 
over the last, as much as, 10 years to try to negotiate and 
preserve these properties. Yes, sir.
    Senator Thomas. Okay.
    Ms. Faucette, it's already a monument, isn't that correct?
    Ms. Hampton-Faucette. That's correct.
    Senator Thomas. Is it the whole area that you're talking 
about is now a monument?
    Ms. Hampton-Faucette. Well, the 22,000 acres that we 
already have is the national monument.
    Senator Thomas. I see.
    Ms. Hampton-Faucette. And they were hoping to acquire the 
4,600, approximately, additional acres that have been offered 
for sale by private landowners which would give more of a 
buffer.
    Senator Thomas. What's the particular advantage to having 
it a park, as opposed to what it is now?
    Ms. Hampton-Faucette. Well, to be honest, I think it's more 
prestigious. Maybe that is why. It would give it more 
attention, because the Congaree is not that widely known, 
except for people who are experts in the field of biodiversity. 
And we have researchers coming from all over the world to study 
it.
    Senator Thomas. Now, this is an international biosphere 
reserve. Is that correct?
    Ms. Hampton-Faucette. Reserve, right.
    Senator Thomas. What will that have to do with the--what 
impact will the change have to do with that?
    Ms. Hampton-Faucette. It won't have any. Sorry about that.
    Senator Thomas. No, that's fine.
    Ms. Fruster, how many property owners are there, private 
property owners, within the proposed expansion?
    Ms. Fruster. Lower Richland is a predominantly Afro-
American community, and our income in Lower Richland is 
approximately--average of $20,000 or $25,000 a year. It would 
be hard and a burden on the Afro-American community if they 
will have to relocate, because most of the people in Lower 
Richland live in manufacturer's homes. They already own their 
own property. This is why some of the--means that the young 
people can't afford to buy a home or come to ownership until 
they are able to build their own houses. We also have a lot of 
people in Lower Richland that is on fixed incomes, such as 
myself, that is disabled, and it would be hard for us to 
relocate. And so we will lose all our inheritance, because the 
land, the majority of the land, in Lower Richland was inherited 
through slavery, and we would not like to lose our land.
    Senator Thomas. How many people are there impacted? Do you 
know?
    Ms. Fruster. Well, we only have the map. They have never 
had a community meeting with us, with the people in Lower 
Richland. Other organizations have endorsed the plan, but we, 
in Lower Richland, the citizens, have never had the opportunity 
to sit down and discuss this plan with them, how it will affect 
us. They've never done the impact study. So we don't know where 
we stand, no more than what we read in the maps and what they 
already have written down how it will affect us.
    Ms. Hampton-Faucette. There's another community meeting 
planned for this coming Monday.
    Senator Thomas. Let me go back to you. Now, there's already 
22,000 acres set aside, is that correct? You're talking about 
additional 4\1/2\ thousand.
    Ms. Hampton-Faucette. Yes. Four-thousand-----
    Senator Thomas. And that's the 4,000 that these people----
    Ms. Hampton-Faucette. I guess. But this is not to pressure 
other landowners to sell their land. This is offered, you know, 
on the map, just these bits, by private landowners who want to 
sell.
    Senator Thomas. All right, thank you.
    Senator Bunning, no questions?
    Well, we thank you very much for your input. We'll be 
considering these proposals before the full committee. So thank 
you so much for being here.
    If you have additional questions, we'll submit them to you. 
If you have comments, we can put them into the record.
    So the committee is adjourned.
    Ms. Hampton-Faucette. Thank you very much.
    Senator Thomas. Thank you.
    [Whereupon, at 10:50 a.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

       Responses of Debby Spencer to Questions From the Committee
    Question 1. How many property owners are in the area of the 
proposed expansion? Are any of these property owners opposed to the 
expansion?
    Answer. The Calloway County Fiscal Court recently purchased a large 
parcel of land to serve as a buffer between Fort Heiman and any 
development. We have also held numerous public meetings in both 
Calloway County, Kentucky and Dover, Tennessee and there have been 
numerous articles in newspapers in both states. We have had no 
opposition that I am aware of. In fact, the communities surrounding 
Fort Donelson have actually formed a ``Save Fort Heiman'' grassroots 
organization to preserve the site. They are very excited about the 
possibility of it becoming a part of the National Park Service.
    Question 2. Fort Heiman is mentioned in the bill under 
consideration. What is the relationship between Fort Heiman and Fort 
Donelson?
    Answer. The capture of the trilogy of forts (Heiman, Henry and 
Donelson) that guarded the Tennessee and Cumberland Rivers by the Union 
constituted the first major Union victory in the Civil War. The outcome 
earned Brig. General Ulysses S. Grant his promotion to major general 
and the nickname ``Unconditional Surrender Grant'' and prominence that 
lead to the Presidency of the United States.
    If decisions had been made differently during this crucial pivot 
point of the war, some say the outcome might have been different. For 
one to properly interpret Fort Donelson, one needs to understand the 
important role of Fort Heiman.
    Question 3. Fort Heiman has been subdivided for future development. 
How many lots have been sold and how many are still available for sale?
    Answer. There are 45 lots within the subdivision. Twenty-two of the 
lots have been sold to fourteen different property owners. The 
remaining lots were purchased by the Calloway County Fiscal Court on 
September 23, 2003 when they purchased the surrounding 160 plus acres. 
It is their intent to give all of this property to the National Park if 
Congress allows it.
    There is one home built in the proposed area, which serves as a 
weekend retreat for its owner, and one home partially completed. Both 
home owners are very supportive of the area becoming a National Park, 
but have expressed a strong interest in retaining their homes. I have 
also personally spoken to nine of the twelve other property owners who 
would be willing sellers if a fair price were offered. I have left 
messages for the remaining three property owners. I have heard that 
they are willing sellers, but I have not personally spoken to them.
                                 ______
                                 
                                      Civil War Adventures,
                                   Sharpsburg, MD, October 8, 2003.
Mr. Pete Lucero,
Subcommittee on National Parks, U.S. Senate, Washington, DC.

Re: S. 1576

    Dear Mr. Lucero: Below are responses to the questions you forwarded 
to me yesterday.
      Responses of Dennis E. Frye to Questions From the Committee
    Question 1. How many acres would this legislation authorize for 
addition to Harpers Ferry?
    Answer. 1,240 acres.
    Question 2. How many private property owners have land within the 
boundaries of the proposed expansion? Are any owners opposed to the 
expansion?
    Answer. None. Property is outside the boundary until it is 
acquired, either through donation or government purchase. Property can 
only be obtained from willing sellers. The park superintendent has met 
individually with each owner to explain the public's interest in their 
parcels. To my knowledge, I am unaware of opposition.
    Question 3. Are private property owners within the boundaries of 
the proposed expansion currently restricted from developing their 
property? Will authorization to purchase the property lead to 
restrictions or pressure on private property owners?
    Answer. Owners are not restricted from development. This 
authorization cannot produce restrictions or downzoning. There is no 
pressure on landowners as private property can only be obtained from 
willing sellers.
                                 ______
                                 
                                                  October 14, 2003.

TO: Tom Lillie and David Brooks
FROM: Dabney Hegg

Re: S. 1313, Congaree National Park Act landowner information

    To follow-up with Chairman Thomas' request for information on the 
landowners affected by the expansion of the Congaree Swamp National 
Monument, the following is their specific information. All landowners 
have come forward as willing sellers:
    Santee River Limited Partnership (2,420.4 acres)--The Santee River 
Limited Partnership is managed by and consists of members of a Chicago 
based family.
    Riverstone Properties LLC (1,886 acres)--Riverstone Properties LLC 
is a partnership managed by a Richmond, Virginia based individual who 
is the managing partner.
    Johnston River Tract LLC (270.46 acres)--The Johnston River LLC is 
managed primarily by Otis C. Johnston, who resides in Columbia, SC and 
is the managing partner.
                                 ______
                                 
          Responses of Harriett Hampton-Faucette to Questions 
                           From the Committee
    Question 1. In addition to being a National Monument, the Congaree 
Swamp is also an International Biosphere Reserve. What is the size of 
the biosphere reserve relative to the size of the park?
    Answer. The 15,200-acre Congaree Swamp National Monument was 
authorized by Congress on Oct. 18, 1976, and was designated as a 
Biosphere Reserve on June 30, 1983. Congress authorized a 7,000-acre 
expansion of Congaree Swamp National Monument to 22,200 acres in 1988.
    Question 1a. Is the Biosphere Reserve under consideration for 
expansion and has that resulted in any confusion over the National Park 
Service expansion?
    Answer. The Biosphere Reserve is not under consideration for 
expansion. Legislation to expand and redesignate Congaree Swamp 
National Monument to Congaree National Park is in no way related to the 
park's 1983 designation as a biosphere reserve.
    There may be some confusion. Ms. Fruster's Oct. 2, 2003, testimony 
before the National Parks Subcommittee indicated that she has been 
misinformed. While speaking about biosphere reserves, Ms. Fruster 
stated, ``Yellowstone National Park has nearly been put OFF LIMITS to 
the American people.'' Yellowstone's 2002 visitation of approximately 4 
million visitors indicates otherwise. The biosphere reserve program's 
main purpose is to award recognition to sites of exceptional 
ecological, scientific or cultural importance. Contrary to Ms. 
Fruster's testimony, recognition does not pose a threat to the 
sovereignty of American lands; it does not impose management or 
reporting requirements on public lands; it does not impose land-use or 
regulatory restrictions on private property owners; and it does not 
restrict economic growth. Biosphere reserves remain under the sovereign 
jurisdiction of the country where they are located.
    Question 2. How many property owners are within the boundary of the 
proposed expansion?
    Answer. There are only four tracts of land proposed for the 
boundary expansion in S. 1313. A single entity owns each tract. All 
four tracts are located on the far eastern end of the current Monument 
within the Congaree River floodplain. The tracts include the following:

          An 1,886-acre tract owned by a company in Richmond, Va.
          A 2,420-acre tract owned by a large Chicago, III., firm.
          A 29-acre tract owned by a single individual who has been 
        interested in negotiating a selling price with the National 
        Park Service for more than a year. He could not do so because 
        his property was outside the park's authorized boundary.

    These three tracts are currently on the market for sale.

    The final tract is:

          A 270-acre tract owned by an individual who is interested in 
        having his property included within the authorized boundary, 
        but isn't interested in selling it at this time.

    Please let me know if you need any further information.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                        South Carolina Wildlife Federation,
                                      Columbia SC, October 2, 2003.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Dirksen Senate Office 
        Building, Washington DC.
Hon. Daniel Akaka,
Ranking Member, Subcommittee on National Parks, Dirksen Senate Office 
        Building, Washington DC.
    The South Carolina Wildlife Federation and Friends of Congaree 
Swamp appreciate this opportunity to support S. 1313, the Congaree 
National Park Act.

S. 1313
  <bullet> Authorizes addition of approximately 4,600 acres to Congaree 
        Swamp National Monument; and
  <bullet> Changes Congaree's designation from National Monument to 
        National Park.

    The 4,600-acre expansion extends a portion of Congaree's eastern 
boundary to the Wateree River. This boundary expansion is a significant 
step toward implementing two visions:

  <bullet> It implements part of the Conservation Vision of the South 
        Carolina Landscape Mapping Project by linking two Core 
        Conservation Areas: the 22,200-acre Congaree Swamp National 
        Monument and the 16,700-acre Upper Santee Swamp Natural Area.
  <bullet> It implements part of the Fork Swamp Large Area Project, 
        approved almost three years ago by the SC Heritage Trust 
        Advisory Board of the SC Dept. of Natural Resources.

    Congaree Swamp's significance is affirmed by many studies and by 
its designations as a National Natural Landmark, a National Monument, 
and an International Biosphere Reserve. A nomination is prepared to 
recognize Congaree Swamp as Wetlands of International Importance.
    Upper Santee Swamp's significance is described in the South 
Carolina Public Service Authority's draft application (2003) for a new 
license for the Santee Cooper Hydroelectric Project:

          Perhaps the most important habitat in the project area, in 
        terms of size, ecological integrity, and function are the river 
        floodplain complexes, which contain cypress swamps and 
        bottomland hardwoods, a habitat complex most well-represented 
        by the Upper Santee Swamp. . . . These wooded wetland complexes 
        are extremely diverse in terms of life forms present and are 
        highly variable from one point to another because of variations 
        in topography and hydrology. Besides their importance for a 
        wide variety of wildlife, these systems support downstream 
        river reaches by contributing valuable organic debris for food-
        chain support, as well as hydrologic support and flood-storage 
        functions.

    Part of Upper Santee Swamp is designated as a 16,700-acre Natural 
Area, further described in the Santee Cooper Natural Area Management 
Plan (1980).
    Again, a key feature of the Congaree boundary expansion in S. 1313 
is linking Congaree Swamp National Monument (Congaree National Park) 
and Upper Santee Swamp.
    S. 1313 respects property ownership rights. The Congaree boundary 
expansion in S. 1313 consists of lands whose owners have given 
permission to include their land in this legislation.
    This boundary expansion was proposed and studied extensively in 
1994, but one of the two key landowners was not ready at that time to 
include the tract in legislation. Now, in 2003, both key landowners are 
willing to sell their tracts for addition to Congaree Swamp National 
Monument.
    However, both key landowners are also willing to sell these tracts 
to other buyers if the Congaree boundary expansion languishes. And both 
key landowners are considering subdividing and selling their tracts as 
smaller parcels. One such parcel has already been sold. This situation 
underscores the urgency to authorize the expanded boundary and purchase 
both key tracts before they are subdivided and sold as multiple 
parcels, especially if the new owners of the multiple parcels are 
unwilling to include their land in the Congaree boundary.
    This area between Congaree Swamp National Monument and Upper Santee 
Swamp is not only an important linkage between Core Conservation Areas. 
This area possesses significant natural and historical attributes which 
complement the resources of Congaree Swamp National Monument. The 
following historical information is compiled from many sources, and 
extensive documentation is available.
    The expansion area includes the site of the southern road to 
McCord's Ferry. This ferry, first chartered in 1766, was situated at 
the northern tip of ``the great bend'' of the Congaree River. Actually, 
McCord's Ferry was preceded in the late 1740s by Joyner's Ferry. 
McCord's Ferry is mentioned in accounts of the American Revolution--
with combatants of both sides crossing the Congaree River at McCord's 
Ferry. For example, Gen. Nathanael Greene crossed the Congaree at 
McCord's Ferry to meet with Francis Marion and Henry ``Light-Horse 
Harry'' Lee after the Patriots captured the British post at Fort Motte.
    Fort Motte was the plantation house of Rebecca Motte, widow of 
Jacob Motte, at Mount Joseph on the Congaree River. The British seized 
and fortified Rebecca Motte's house as one of their posts to defend 
British supply routes during the Revolution. The Patriots succeeded in 
setting the house roof ablaze in May 1781, thereby forcing the British 
to surrender. The site of Fort Motte (Rebecca Motte's house) was in 
modern-day Calhoun County, but Motte lands extended into modern-day 
Richland County--part of this Congaree boundary expansion.
    The charter to operate McCord's Ferry lapsed during the Revolution. 
Thereafter, citizens petitioned that a ferry be established upriver 
from McCord's Ferry at the plantation of Isaac Huger. The General 
Assembly chartered Huger's Ferry in 1786. Congaree Swamp National 
Monument contains several sites on the National Register of Historic 
Places, one of which is a remnant of the road to Huger's Ferry.
    Soon after Huger's Ferry was established, citizens petitioned to 
re-establish McCord's Ferry. Isaac Huger objected because he had gone 
to great trouble and expense to establish Huger's Ferry and the roads 
to it.
    Mary Brewton Motte, youngest daughter of Jacob and Rebecca Motte, 
also objected because she did not want the road to McCord's Ferry to 
run through her plantation, known as Buckhead, on the Congaree River. 
Miss Motte feared the road to the ferry would render her plantation 
useless.
    Eventually, McCord's Ferry was re-established, which is significant 
for the Congaree boundary expansion in bill S. 1313. As explained 
previously, McCord's Ferry was situated at the northern tip of ``the 
great bend'' of the Congaree River. Accordingly, the road to McCord's 
Ferry from the south was within the boundary expansion area in bill S. 
1313, as was part of Mary Brewton Motte's Buckhead plantation.
    Documents pertaining to the South Carolina General Assembly's 
periodic re-chartering of McCord's Ferry, into the 1840s, provide 
interesting insights about the Congaree River cutting off its former 
channel, known today as Bates Old River, the longest oxbow of the 
Congaree River and one of the longest oxbows in South Carolina. 
Accordingly, two ferries became needed, one to cross the former channel 
of the Congaree, and one to cross the river's new channel. Thus, we 
know much more about the history of the Bates Old River oxbow than any 
oxbow within the current boundary of Congaree Swamp National Monument.
    McCord's Ferry became known as Bates' Ferry before the end of the 
Civil War. Official records from the Civil War mention Bates' Ferry. In 
1865, as the Union Army advanced from Orangeburg to Columbia, Union 
troops staged a diversion by skirmishing with Confederate troops at 
Bates' Ferry.
    Currently, a railroad is the eastern boundary of Congaree Swamp 
National Monument. It is the second-oldest railroad in South Carolina, 
completed in 1842. S. 1313 extends part of Congaree's eastern boundary 
from the railroad to the west bank of the Wateree River.
    In 1852, the Congaree River experienced a huge flood. At that time, 
it was the largest flood ever recorded on the Congaree River, and today 
the 1852 flood remains the second-largest flood on the Congaree. The 
presence of the railroad led to interesting newspaper reports about 
1852 flood damage to railroad structures crossing the Congaree River 
and floodplain.
    The Confederacy utilized this railroad during the Civil War. The 
second-largest Confederate troop movement by rail during the Civil War 
utilized this railroad, when Longstreet's First Corps moved from 
Virginia to north Georgia, arriving at the time of the Battle of 
Chickamauga. Records also describe destruction of railroad property 
(including the Congaree River bridge and Congaree floodplain trestles) 
and structures in the village of Kingville as the Union Army approached 
and departed Columbia.
    Thank you for considering our statement in support of S. 1313, the 
Congaree National Park Act of 2003. Please contact us if additional 
information will be helpful.
            Sincerely,
                                   Angela Viney, Executive Director,
                                           South Carolina Wildlife 
                                               Federation.

                                   LaBruce Alexander, President,
                                           Friends of Congaree Swamp.
                                 ______
                                 
  Statement of Dr. William L. Graf, Educational Foundation University 
   Professor and Professor of Geography, University of South Carolina
    The purpose of this testimony is to support the passage of the 
Congaree National Park Act of 2003 by pointing out the geographic, 
scientific, and historic significance of the park from the standpoint 
of a practicing researcher. My views derive from more than 30 years 
experience as a researcher, teacher, and public servant specializing in 
the environmental sciences and policy for public land and water. My 
experience is national and international in scope, and includes many 
public land and water areas throughout the United States. The following 
testimony addresses the national geographic importance of the Congaree, 
its scientific significance, and its historical importance, with a 
concluding comment about the name of the unit.
Geographic Importance
    The high degree of protection and support offered by national park 
status for the Congaree is important from the following national 
geographic perspectives:
    1. The park represents the only extensive tract of eastern, flood 
plain, hardwood, old growth deciduous forest in the nation, so that it 
adds to the diversity and representativeness of the park system from a 
national perspective. The long-term effectiveness of the national park 
system in achieving its goal of preservation of resources for the 
enjoyment of present and future generations depends on the inclusion of 
features that represent the diversity of geologic, hydrologic, and 
biologic systems across the entire country. Because of the history of 
economic development and the disposition of federal public lands, the 
park system includes substantial representation of western ecosystems, 
but it is less complete with respect to eastern ecosystems. When the 
United States became a nation, there were more than 24,000,000 acres of 
eastern, flood plain, old growth, deciduous forest. Only small remnants 
of a few hundred to a few thousand acres now remain. The Congaree's 
11,000 acres is the largest remnant of this east coast ecosystem, and 
is as much a part of our heritage as the redwood forests in the park 
system on the west coast.
    2. The park's location in the eastern United States is important 
because in terms of area the national park system is heavily weighted 
toward western areas: eastern additions contribute to regional balance. 
In terms of total acreage, relatively large western parks dominate the 
national park system. Yet, the natural, non-urban ecosystems of the 
eastern United States are of equal historic and scientific importance, 
and they are located close to many of the nation's largest population 
centers and large numbers of potential users. The opportunity for 
public scientific and historical education is greatly enhanced if the 
park system includes sizeable eastern units, and the Congaree offers a 
unique opportunity in its addition to the system. In a part of the 
nation where public lands are a small percentage of the total surface 
area, the Congaree is relatively large.
    3. The size of the park protects the resource. National parks for 
environmental resources are often relatively large, but absolute size 
is much less important than the relationship between the geographic 
areas of the park and the resource it is designed to protect. By this 
yardstick, the Congaree (with its proposed 4,500 acre addition) is at 
the optimal size, Of the 13,000 acres of old growth forest now in the 
entire state of South Carolina, 11,000 acres are in the park.
    4. The park's 15,000 acres of wilderness are especially important 
from a national perspective because of the relative scarcity of 
wilderness in the eastern United States. Although national park space 
is weighted toward the western half of the nation, wilderness space is 
even more heavily weighted to the west. Of the nation's 105.5 million 
wilderness acres, 54% is in Alaska, and 90% is in the western portion 
of the country. The 15,000 acre wilderness component of Congaree is one 
of the largest truly wild areas in the southeast, and my personal 
experience indicates that it is truly wild, pristine, and unique with 
respect to the existing wilderness system.
Scientific Significance
    National park status for the Congaree is exceptionally important 
from the scientific standpoint for the following reasons:
    1. The old growth, flood plain, deciduous forest is a world-class 
research and education resource. Ecosystem science depends for its 
understanding of environmental dynamics on investigations of areas that 
have not been significantly affected by human activities. Although the 
understanding of human effects is necessary for good management, 
fundamental analysis requires areas that are as natural as possible. 
These undisturbed areas are especially difficult to find on flood 
plains (where economic development is focused), and undisturbed, old 
growth forests are additionally rare. The park has some of the tallest 
trees in the eastern United States with the highest forest canopy of 
its type in the world. The Congaree represents a globally significant 
scientific laboratory that is unequaled for its ecosystem type, a fact 
recognized by its status as an International Biosphere Reserve. 
Annually, researchers from the United States and other continents use 
the Congaree as a platform for their research, and their published 
scientific results lead to better management of this and other forests.
    2. The forest is a benchmark system and a barometer of ecosystem 
responses to global climate, changes. Of special scientific importance 
is the fact that most of the Congaree is old growth forest, never 
having been harvested. The Congaree therefore represents eastern 
hardwood forests on flood plains as they were before technological 
intervention, and it represents a standard ecological yardstick by 
which change in other areas can be measured. When we attempt to restore 
other systems to more natural conditions, the Congaree provides a model 
toward which we can work. When decision makers and the public require 
an understanding of what the goals of forest restoration are, we have 
an accessible example in the public lands of the Congaree. This forest 
also can be used as a measuring device for assessing the effects of 
global climate change. Often, the effects of such changes are hard to 
gauge in ecosystems where other human influences are overwhelming, such 
as in managed forests. Because the Congaree is in its original, natural 
state, it records and responds to global adjustments and serves as a 
sort of ``miner's canary'' for forest health throughout the eastern 
United States.
    3. The river is a benchmark system for river restoration. The 
forest of the Congaree is the unit's most obvious environmental 
resource, but the Congaree River which forms the southern border of the 
park, is of equal importance for science. Although there are a few 
sizeable dams many miles upstream from the park, the flow of the river 
is close to its natural condition in the vicinity of the Congaree, with 
large fluctuations on monthly and annual time scales. As a result, the 
aquatic habitats and the landforms of the river are nearly natural, 
something that is exceptionally rare in the United States, where most 
rivers are dammed and artificially controlled. The Clean Water Act 
mandates that it is national policy to restore and maintain our 
nation's water courses, but there are few models to follow when we try 
to modify dam operations and other control mechanisms to simulate more 
natural conditions. The Congaree River in the vicinity of the park 
provides one of the very few examples that can be used as a benchmark 
by researchers, managers, and decision-makers dealing with the 
restoration of large eastern American rivers.
    4. The diversity of the system makes it an indispensable wildlife 
habitat area. There are more than 700 species of plants in the 
Congaree, a remarkably diverse basic ecosystem that permits a wide 
range of wildlife to flourish. Because diversity of animal species 
depends on diversity of plants for survival, the Congaree is 
particularly important from the perspective of biodiversity. There are 
no other tracts of similar size, public or private, in the Piedmont and 
coastal plain that are as diverse as the Congaree. This characteristic 
makes the park a significant gene pool and life assemblage very 
different from the managed landscapes that surround it. We do not yet 
know the extent or ultimate value of this diversity, but we do know 
that biodiversity is becoming an increasingly rare geographic asset in 
most parts of the world. As a result, while development in many parts 
of the world destroys forests, the Congaree becomes increasingly 
important for research.
Historical Significance
    National park status for the Congaree is important because the area 
is of surprising historical significance for the following reasons:
    1. The ancient history of the area is reflected in archaeological 
evidence. More than 10,000 years ago, ancient societies used the 
Congaree area for life and sustenance. Some of the remains of their 
activities are found in the general region, including the park area. 
However, an extensive inventory and assessment of these sites has not 
yet been done for the park. Substantial amounts of future exploration 
and research remain in the area, with the results likely to shed 
significant understanding on the lives and livelihoods of these ancient 
peoples. Protection of these as yet unstudied sites is essential if we 
are to learn about them from professional investigations.
    2. The area of the proposed park includes a critical gateway for 
colonial expansion from coastal areas into the interior of the southern 
Piedmont. The 4,500-acre proposed expansion of the existing national 
monument is absolutely critical because it would result in the 
inclusion of the area at the confluence of the Wateree and Congaree 
rivers. This area was a funnel for the first extensions of colonial 
settlement upward from the coast and into what is now central South 
Carolina during the early 1700s. As an early representative of colonial 
expansion from coast to Piedmont that was occurring all along the east 
coast, this area was the site of two essential ferry crossings, Huger's 
Ferry (in the present national monument) and McCord's Ferry (in the 
extension area). The creation of these ferry crossings, establishment 
of trading posts at the confluence of the two rivers, and conversion of 
Native American trails to primitive roads radiating northward and 
westward from this confluence were critical components of the early 
history of this part of the nation. Preservation of these sites and 
development of interpretive mechanisms in a national park will provide 
much needed educational opportunities related to the American story, 
informing visitors about the earliest westward expansions.
    3. The area includes archaeological sites related to early European 
settlement. From records we know that the general Congaree area was one 
of the first major grazing areas of what became the United States. In 
the late 1600s, long before the better known ``wild west'' of more 
recent times, cowboys grazed their herds in the vicinity of the 
Congaree. During the colonial period, graziers constructed mounds for 
their cattle to use during flooding periods. The Congaree still 
contains examples of ring dikes, mounds, and levees constructed by some 
of the nation's first cowboys. Additional research into these features 
and their associated lifestyles and economy is likely to produce 
important educational opportunities not available in any other 
location.
The Name ``Congaree National Park''
    Congaree National Park is an appropriate name for this unit of the 
park system for three important reasons:
    1. The present label of ``Congaree Swamp'' is a misnomer. Congaree 
Swamp National Monument is a misapplication of the term ``swamp.'' 
``Swamp'' is a geographical term applied to areas of low, waterlogged 
ground, often characterized by bog or marsh vegetation. The area of 
this park unit is not a swamp, but rather it is a flood plain, 
periodically overflowed by river waters. Its vegetation is flood plain 
forest rather than swamp marsh grasses. For this reason, the national 
park name should not include the term ``swamp.''
    2. ``Congaree'' is the name of the occupants of this area before 
the arrival of Anglo-Americans. The Native American tribe that occupied 
the area of the park called itself the Congaree, and the 
memorialization of their occupancy here is appropriate. The Congaree 
tribe, like most tribes in the coastal Southeast, was small in number. 
Within a few years of their contact with Anglo-Americans, they were 
decimated by disease, and survivors scattered to join other nearby 
tribes.
    3. From colonial times, Anglo-Americans referred to the area that 
includes the park as ``the Congaree.'' From about 1700 onward, the area 
of land between the Wateree and Congaree rivers was known as ``the 
Congaree.'' The label appears in newspapers and books until the 
formation of present-day Richland County shortly before 1800, though 
``the Congaree'' continued in colloquial use for many years. As a label 
for the national park, Congaree (without the additional term ``swamp'') 
has historical significance.
    In summary, national park status is strongly justified for an 
expanded version of the existing Congaree Swamp National Monument 
because of the potential role of the unit in the nation-wide system of 
parks. The Congaree is a place of substantial scientific significance 
and historical importance, and its preservation and management as a 
national park will benefit present and future generations of Americans 
as well as providing protection for a resource of national and 
international significance.

                              University of South Carolina,
                              Columbia, SC, August 4, 2003.
Senator Fritz Hollings,
Russell Office Building, Washington, DC.
    Dear Senator Hollings: The purpose of this letter is to offer 
support in the form of formal testimony commenting on the scientific 
importance of your Congaree National Park Act of 2003. My comments stem 
from my experience of more than 30 years as a specialist in 
environmental sciences and policy for public land and water. Below, I 
address the national geographic and scientific importance of the 
Congaree. I close with a brief comment on the appropriate name for the 
park, a portion of which is now known as Congaree Swamp National 
Monument.
National Geographic Significance
    Congaree National Park would be an indispensable component of the 
park system, because it would be the only extensive representative in 
the national system of an eastern, temperate, flood plain, hardwood 
forest. A reasonable goal of the park system is to include a wide range 
of representative ecosystems, so that the inclusion of this example is 
a foregone conclusion. There are no other examples of this ecosystem in 
tracts this large available for preservation. Of equal importance, 
however, is the opportunity to protect the Congaree's 15,000 acres of 
wilderness. Wilderness tracts of any extent are exceptionally rare in 
the eastern portion of the United States, making this area a vital part 
of a balanced national system with fair representation for the East. I 
have examined the wilderness area of the Congaree, and I find that it 
is pristine and unique.
Scientific Significance
    The Congaree is scientifically significant from at least three 
standpoints: the forest ecosystem, the Congaree River, and wildlife in 
the area. As part of the International Biosphere Reserve system, the 
Congaree is a world-class ecology laboratory, and as such, it is 
critical to global research on ecosystem dynamics. The Congaree forest 
is a remnant of a forest type that once covered huge areas of the 
eastern United States, and it offers public visitors and scientific 
researchers the only existing opportunity to see and investigate some 
of the tallest trees in the eastern part of the nation and one of the 
highest forest canopies in the world. The Congaree River on the 
southern edge of the park largely functions as a natural stream 
(despite some dams located many miles upstream from the park). The 
significance of this nearly natural behavior is that the stream is one 
of the few rivers in the East that can be used as a benchmark to guide 
river restoration and maintenance efforts mandated by the Clean Water 
Act. Finally, the more than 170 bird species sighted over the past 
decade in the Congaree include the endangered red-cockaded woodpecker. 
The biodiversity of the park, extending from the 700 plant species to 
remarkably diverse wildlife make the area pivotal as a location for 
scientific investigations into the complex connections among land, 
water, and life that are obscured elsewhere by agricultural and urban 
land uses.
The Name ``Congaree National Park''
    Your bill proposes the name ``Congaree National Park,'' and I urge 
you to retain this name, avoiding the use of the term ``Congaree 
Swamp.'' The area is not a swamp, scientifically defined as a 
constantly wet area with standing water and bog or marsh vegetation. 
The Congaree, on the other hand, is a flood plain, periodically 
inundated by flowing water, with a majestic hardwood forest.
            Sincerely,
                                   William L. Graf,
                                           Educational Foundation 
                                               University Professor
                                           and Professor of Geography.

                                    

      

</pre></body></html>
